<html>
<title> - H.R. 2651, THE HORSERACING INTEGRITY ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




            H.R. 2651, THE HORSERACING INTEGRITY ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                    
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2018

                               __________

                           Serial No. 115-143
                           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-128	                    WASHINGTON : 2019 



                               
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)


  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     2
Hon. Hon. Robert E. Latta, a Representative in Congress from the 
  State of Ohio, opening statement...............................     3
    Prepared statement...........................................     4
Hon. Tony Cardenas, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    17

                               Witnesses

Andy Barr, A Representative in Congress from the Commonwealth of 
  Kentucky.......................................................     5
    Prepared statement...........................................     8
Paul Tonko, A Representative in Congress from the State of New 
  York...........................................................    12
    Prepared statement...........................................    14
Alan M. Foreman, Chairman and CEO, Thoroughbred Horsemen's 
  Association, Inc...............................................    19
    Prepared statement...........................................    21
    Answers to submitted questions \1\...........................    91
Stuart S. Janney, III, Chairman, The Jockey Club.................    26
    Prepared statement...........................................    28
    Answers to submitted questions \2\...........................    93
Eric Hamelback, CEO, National Horsemen's Benevolent and 
  Protective Association.........................................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................    96
Kitty Block, Acting President and CEO, Humane Society of the 
  United States..................................................    42
    Prepared statement...........................................    44
Ed Martin, President, Association of Racing Commissioners 
  International..................................................    53
    Prepared statement \3\.......................................    55
    Answers to submitted questions...............................    99
Craig Fravel, CEO, The Breeders' Cup.............................    56
    Prepared statement...........................................    58
    Answers to submitted questions \4\...........................   107

                           Submitted Material

Documents submitted by Mr. Kinzinger.............................    85
Statement of ASPCA, submitted by Ms. Schakowsky..................    90
Documents submitted by Mr. Latta \5\

----------
\1\ The committee did not receive a response to Mr. Foreman's 
  submitted questions for the record by the time of printing.
\2\ The committee did not receive a response to Mr. Janney's 
  submitted questions for the record by the time of printing.
\3\ The attachments to Mr. Martin's statement can be found at: 
  https://docs.house.gov/meetings/IF/IF17/20180622/108463/HHRG-
  115-IF17-Wstate-MartinE-20180622.pdf.
\4\ The committee did not receive a response to Mr. Fravel's 
  submitted questions for the record by the time of printing.
\5\ The documents can be found at: https://docs.house.gov/
  meetings/IF/IF17/20180622/108463/HHRG-115-IF17-20180622-
  SD003.pdf.

 
            H.R. 2651, THE HORSERACING INTEGRITY ACT OF 2017

                              ----------                              


                         FRIDAY, JUNE 22, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Kinzinger, Burgess, Lance, 
Guthrie, Bilirakis, Bucshon, Mullin, Walters, Costello, Duncan, 
Walden (ex officio), Schakowsky, Cardenas, Welch, Kennedy, 
Green, and Pallone (ex officio).
    Staff Present: Mike Bloomquist, Staff Director; Karen 
Christian, General Counsel; Melissa Froelich, Chief Counsel, 
Digital Commerce and Consumer Protection; Ali Fulling, 
Legislative Clerk, Oversight and Investigations/Digital 
Commerce and Consumer Protection; Elena Hernandez, Press 
Secretary; Paul Jackson, Professional Staff Member, Digital 
Commerce and Consumer Protection; Bijan Koohmaraie, Counsel, 
Digital Commerce and Consumer Protection; Greg Zerzan, Counsel, 
Digital Commerce and Consumer Protection; Michelle Ash, 
Minority Chief Counsel, Digital Commerce and Consumer 
Protection; Lisa Goldman, Minority Counsel; Caroline Paris-
Behr, Minority Policy Analyst; and Carolyn Hann, Minority FTC 
Detailee.
    Mr. Latta. Well, good morning. I would like to call the 
subcommittee on Digital Commerce and Consumer Protection to 
order this morning. I welcome you all here this morning.
    And, at this time, the chair is going to recognize the 
gentleman from Oregon, the chairman of the full committee, for 
5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    I want to welcome our witnesses on this panel. And I will 
just stipulate at the beginning, I have to go manage the floor 
debate on H.R. 6, our big wrap-up bill on opioids. So my 
apologies at the head end, but that starts now as well.
    So I will keep my remarks fairly short. I will dispense 
with the discussion about the great thundering herds of 
Mustangs across the high desert of eastern Oregon. My district 
is enormous, and horses and horseracing and rodeo and ranching 
are all part of it.
    But we really appreciate all of you being here today as we 
have this legislative hearing on H.R. 2651, the Horseracing 
Integrity Act of 2017.
    From the American West, the Kentucky Blue Grass, the 
renowned tracks in New York, and beyond, horses hold a very, 
very special place in our hearts and our history. Still today 
across the country, and especially in my district, horses are 
part of the fabric, they are part of our culture, they are part 
of our economy.
    My district is home to the world famous Pendleton Round-Up, 
one of the great rodeos of the West, and local races at places 
like Prineville and Frenchglen and everywhere else. As you all 
know and appreciate, horseracing in particular has a storied 
history in this country and remains an important economic 
driver.
    Our discussion of Mr. Barr and Mr. Tonko's bill is also 
very timely. Earlier this month, the world witnessed history as 
Justify became the 13th horse to complete the Triple Crown.
    Today, we will hear from you, the experts, about the 
horseracing industry, how it is currently regulated, and what 
can be done to protect these wonderful, wonderful animals. We 
want to know your thoughts on the legislation at hand--we know 
you have different thoughts on it, depending upon your position 
on this issue--its impact on the industry, and how best to 
promote the vitality and integrity of this celebrated sport.
    You all have insights that will help inform us as to how we 
can address some of the concerns that currently exist in the 
industry. So I thank you all for being here today for this 
important, important discussion, and I am looking forward to 
your perspectives on this bill and this sport.
    And, with that, Mr. Chairman, I yield back the balance of 
my time, and, as we like to say in eastern Oregon, ``Let 'er 
buck.''
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and thank you to our witnesses for appearing 
before us today to participate in our legislative hearing on 
H.R. 2651, the Horseracing Integrity Act of 2017.
    From the American West, to the Kentucky bluegrass, to the 
renowned tracks in New York and beyond, horses hold a special 
place in our history.
    Still today, across the country, and especially in Oregon's 
Second District, horses are part of the fabric of our culture 
and economy. My district is home to the world famous Pendleton 
Round-Up and local races at Prineville's Crooked River Ranch 
Round-Up.
    As you all know and appreciate, horseracing, in particular, 
has a storied history in this country and remains an important 
economic driver.
    Our discussion of Mr. Barr and Mr. Tonko's bill is also 
very timely. Earlier this month, the world witnessed history as 
Justify became the 13th horse to complete the Triple Crown.
    Today, we will hear from you, the experts, about the 
horseracing industry, how it is currently regulated, and what 
can be done to protect these wonderful animals. We want to know 
your thoughts on the legislation at hand, its impact on the 
industry, and how best to promote the vitality and integrity of 
this celebrated sport.
    You all have insights that will help inform us as to how we 
can address some of the concerns that currently exist in the 
industry. I thank you all for being here today for this 
important discussion and I am looking forward to your 
perspectives on this bill and this sport.
    I yield back the balance of my time, and as we like to say 
in eastern Oregon, let `er buck!

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. OK. The gentleman yields back. Thank you very 
much.
    And, at this time, because they are delayed right now, the 
ranking member of the subcommittee and the ranking member of 
the full committee haven't arrived, we will informally pass on 
their opening statements, but I will go right into my opening 
statement at this time.
    Again, I want to thank you all very much for appearing 
today before us to discuss Representative Barr's and 
Representative Tonko's legislation, H.R. 2651, the Horseracing 
Integrity Act of 2017.
    This legislation will establish an independent, nonprofit 
authority, the Horseracing Anti-Doping and Medication Control 
Authority. This authority would be tasked with developing and 
administering an anti-doping and medication control program for 
horseraces and affiliated persons.
    The bill also aims to ban the use of medication 24 hours 
before a race, which advocates and opponents tell the committee 
would result in a ban on the use of LASIX, a widely used 
medication that is administered 4 hours prior to post time to 
treat exercise-induced pulmonary hemorrhaging.
    Horseracing has a long and distinguished history in the 
United States. Just a couple weeks ago, on June 9, millions of 
Americans watched as Justify, a Thoroughbred racehorse jockeyed 
by 52-year-old veteran Mike Smith, became the 13th winner of 
the Triple Crown. This was a historic accomplishment celebrated 
across the globe.
    It is also notable that horseracing is an international 
sport. Although the races of the Triple Crown are the world's 
most prestigious, other annual events in the United Kingdom, 
France, Australia, the United Arab Emirates, and around the 
globe demonstrate the worldwide appeal of this ancient sport.
    Here in the United States, at least 32 States have 
horseracing tracks, stretching from California to Maine, 
including my home State of Ohio. These tracks provides the base 
of an industry that has a far-reaching and significant impact 
on the U.S. economy.
    Last year, approximately 51,000 horses competed in about 
41,000 races, competing for a total purse of more than $1 
billion. According to a recent study, the equine industry 
generates more than $120 billion in total economic impact and 
provides a total employment impact of almost 1.8 million jobs. 
In my home State of Ohio, horseracing generates $715 million in 
annual revenue and supports more than 16,000 jobs.
    Horseracing is an important part of the American fabric, 
both as a sport and as a source of entertainment. Ensuring the 
integrity of the sport is important to owners, competitors, and 
fans alike. I look forward to hearing the views of our 
witnesses today on this legislation.
    And, with that, I will yield back the balance of my time. 
And, at this time, I will recognize the gentleman from 
California for a 5-minute opening statement.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and thank you to our distinguished panel for 
appearing before us today to discuss Representative Barr and 
Tonko's legislation, H.R. 2651, the Horseracing Integrity Act 
of 2017.
    This legislation establishes an independent non-profit 
authority, the Horseracing Anti-Doping and Medication Control 
Authority. This Authority would be tasked with developing and 
administering an anti-doping and medication control program for 
race horses and affiliated persons. The bill also aims to ban 
the use of medication 24 hours before a race, which advocates 
and opponents tell the committee would result in a ban on the 
use of Lasix, a widely used medication that is administered 4 
hours prior to post time to treat exercise-induced pulmonary 
hemorrhaging.
    Horseracing has a long and distinguished history in the 
United States. Just a couple of weeks ago, on June 9th, 
millions of Americans watched as Justify, a thoroughbred 
racehorse, jockeyed by 52-year-old veteran Mike Smith, became 
the 13th winner of the Triple Crown. This was a historic 
accomplishment, celebrated across the globe.
    It is also notable that horse racing is an international 
sport. Although the races of the Triple Crown are the world's 
most prestigious, other annual events in the United Kingdom, 
France, Australia, the United Arab Emirates and around the 
globe demonstrate the world-wide appeal of this ancient sport.
    Here in the United States at least 32 states have horse 
racing tracks, stretching from California to Maine, including 
my home State of Ohio. These tracks provide the basis of an 
industry that has a far-reaching and significant impact on the 
U.S. economy.
    Last year, approximately 51,000 horses competed in about 
41,000 races competing for a total purse of more than $1 
billion. According to a recent study, the equine industry 
generates more than $120 billion in total economic impact and 
provides a total employment impact of almost 1.8 million jobs. 
In my home State of Ohio, horse racing generates $750 million 
in annual revenue and supports more than 16,000 jobs.
    Horseracing is an important part of the American fabric, 
both as a sport and as a source of entertainment. Ensuring the 
integrity of the sport is important to owners, competitors and 
fans alike. I look forward to hearing the views of our 
witnesses today on the legislation.
    Thank you and I yield back the balance of my time.

 OPENING STATEMENT OF HON. TONY CARDENAS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardenas. Thank you very much, Chairman Latta, for 
having this hearing. And I would like to thank my colleagues 
for introducing this legislation.
    Good morning, everybody. I am glad to cosponsor this 
bipartisan legislation, and I applaud Representatives Barr and 
Tonko for its introduction. As a longtime advocate of ensuring 
welfare protections for animals, I am glad that we are having a 
hearing on the implications of drug use in the horseracing 
industry.
    While it is true that most states currently have 
regulations on drug use in horseracing, there is very little 
uniformity. This legislation is important because it would 
establish an independent authority to oversee the industry, 
which would include members of the United States Anti-Doping 
Agency, USADA, an organization that has been very effective at 
overseeing drug use in other sports.
    The main purpose of the regulatory authority is to 
implement a uniform anti-doping program and to create a 
national standard that ensures all states are following the 
same rules.
    Like humans, overmedication of horses can be extremely 
dangerous. According to data released by the American Jockey 
Club, about 493 Thoroughbred horses died in 2017. While there 
may be several reasons for these equine deaths, it is hard to 
point to other factors when over 90 percent of Thoroughbreds in 
the United States receive some form of race-day medication.
    It is critical that we have an organization to provide 
oversight to this industry. We need to make sure that there is 
fairness in horseracing, but the main focus should always be on 
the welfare of the horses and the safety of the jockeys.
    I look forward to hearing from our colleagues, who are 
about to ensure that safety in this sport that many of us have 
enjoyed is now in a better place.
    I yield back.
    Mr. Latta. Well, thank you very much.
    The gentleman yields back the balance of his time.
    And, at this time, as I mentioned, we will informally pass 
on the ranking member's statement. When he gets here, he can 
give his statement, but that will conclude the opening 
statements from our members.
    The chair reminds members that, pursuant to committee 
rules, all members' opening statements will be made part of the 
record.
    At this time, I ask unanimous consent that Energy and 
Commerce members not on the Subcommittee on Digital Commerce 
and Consumer Protection be permitted to participate in today's 
hearing.
    Without objection, so ordered.
    And, pursuant to House rules, members that are not on the 
committee are able to attend the meeting but will not be able 
to ask questions.
    At this time, we want to thank our witnesses for being with 
us today. Greatly appreciate you coming before the subcommittee 
to testify.
    Our first panel will be recognized for opening statements, 
and then, without recessing, we will seat our second panel of 
witnesses, who will be recognized for their opening statements. 
And then members will have an opportunity to ask questions.
    Our first panel of witnesses are the original cosponsors of 
H.R. 2651, Representative Andy Barr from the great State of 
Kentucky and Representative Paul Tonko from the great State of 
New York.
    I thank you both for being here.
    And, Mr. Barr, you are recognized for 5 minutes for your 
opening statement. Thank you.

STATEMENTS OF HON. ANDY BARR, A REPRESENTATIVE IN CONGRESS FROM 
THE COMONWEALTH OF KENTUCKY; HON. PAUL TONKO, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

                  STATEMENT OF HON. ANDY BARR

    Mr. Barr. Thank you, Chairman Latta. Thank you to Chairman 
Walden, as well, and to Mr. Cardenas and the ranking member for 
holding this hearing on our legislation, H.R. 2651, the 
Horseracing Integrity Act.
    When I was first elected to Congress, I dedicated my 
service to promoting the signature industries of Kentucky, and 
nothing is more synonymous with our commonwealth than 
thoroughbred breeding and horseracing.
    My district, in particular, holds the title ``Horse Capital 
of the World.'' Now, 11 of the 13 Triple Crown winners were 
foaled in the Sixth District, including the most recent 
champion, Justify. Lexington, Kentucky is surrounded by more 
than 400 world-class horse farms, including Ashford Stud, the 
home of the last Triple Crown winner, American Pharoah. And 
Keeneland racecourse hosts many notable races, including the 
Toyota Blue Grass Stakes and the 2015 Breeders' Cup.
    However, this sport is not only prominent in our district, 
but horseracing is truly a national sport. Therefore, 
advocating for this industry requires more than just 
celebrating a proud heritage. With the privilege of 
representing the Horse Capital of the World comes the 
responsibility of fighting for its future. And, as the chairman 
pointed out, this is not just a sport; this is an industry with 
enormous economic benefit and enormous impact in terms of job 
creation.
    That is why I, with my fellow co-chair of the Congressional 
Horse Caucus, Representative Paul Tonko, introduced the 
Horseracing Integrity Act to enact reforms that would ensure 
the industry continues to grow and prosper.
    Currently regulated by 38 separate jurisdictions, our 
signature racing industry labors under a patchwork of 
conflicting and inconsistent state-based rules governing 
prohibited substances, lab accreditation, testing, and 
penalties for violations. This lack of uniformity has impeded 
interstate commerce, compromised the international 
competitiveness of the industry, and undermined public 
confidence in the integrity of our sport.
    H.R. 2651 would remedy these problems by authorizing the 
creation of a nongovernmental anti-doping authority, the 
Horseracing Anti-Doping and Medication Control Authority, 
governed by representatives of all major constituencies of the 
industry and responsible for implementing a national, uniform 
medication program for the horseracing industry.
    Today, you will hear from many supporters of this bill, and 
you will hear from critics of this legislation on the panels to 
follow. The critics will say that this legislation will create 
a new duplicative regulatory bureaucracy at the Federal level 
and will duplicate what states are already doing. They will say 
it increases regulation. They will say it bans LASIX, which is 
currently legal to administer on race day in the United States. 
And they will say they have concerns with the ability of the 
United States Anti-Doping Agency to regulate this program.
    It is true that the industry has made notable strides in 
recent years to adopt uniform standards. The work of the Racing 
Medication and Testing Consortium and the NTRA's Safety & 
Integrity Alliance has been positive and should be commended.
    But, to date, only 11 of the 38 racing jurisdictions with 
laws permitting parimutuel horseracing have adopted all 4 
elements of the National Uniform Medication Program. The 
remaining state racing jurisdictions operate under only rules 
applicable to that state and have great variances. Of the 
leading racing states, like New York, California, Florida, or 
Kentucky, none have fully implemented NUMP.
    As a conservative who believes in federalism and states' 
rights, I also understand that the Constitution gives Congress 
the power to regulate interstate commerce precisely for the 
purpose of eliminating these kinds of impediments to interstate 
exchange.
    A national, uniform medication program is not about 
creating more bureaucracy or more regulation. In fact, this 
legislation reduces regulations by replacing 38 state-by-state 
regulatory regimes with a single national, uniform set of 
standards.
    To address concerns with the dispersion of specific drugs, 
H.R. 2651 does not ban the administration of LASIX for truly 
therapeutic purposes. Rather, it prohibits trainers from 
administering these drugs on race day. So it preserves out-of-
competition therapeutic administration.
    This would bring U.S. regulation in line with other 
horseracing counterparts in places like Europe, Dubai, and Hong 
Kong, ultimately eliminating the perception of unfair 
competition and enhancing the reputation of U.S. racing on an 
international level, which is important for the international 
sales and exports of our breeding stock as well.
    Finally, USADA's involvement through the HADA would bring 
the sport independence, expertise, and credibility. The HADA 
will be made up of USADA and industry officials, thus 
benefiting from the experience of officials and individuals 
tasked with addressing the challenges presented in horseracing 
today.
    And H.R. 2651 would address many of the issues confronting 
the industry, increase the popularity and public confidence and 
international competitiveness of the sport.
    In the wake of Justify's historic Triple Crown, it is 
important we use this momentum to continue to fight for the 
future of this special industry.
    And I yield back.
    [The prepared statement of Mr. Barr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Latta. Thank you very much.
    The gentleman from Kentucky yields back, and the chair now 
recognizes the gentleman from New York for 5 minutes.

                  STATEMENT OF HON. PAUL TONKO

    Mr. Tonko. Thank you, Chair.
    And I do want to offer my thanks here publicly to Chairman 
Walden and Ranking Member Pallone for the opportunity for the 
hearing. And, likewise, thank you, Chair Latta and Ranking 
Member Schakowsky and Ranking Member Cardenas, today for the 
opportunity to testify before you on the importance of 
promoting uniformity and integrity in the horseracing industry.
    You might think a New York Democrat and a Kentucky 
Republican can't agree on much, but we have developed a strong 
working relationship on this issue because we both love the 
sport of horseracing and want to see it thrive.
    I am pleased that we are holding this hearing today to 
learn about what we can do to improve this sport of kings and 
ensure the sport continues to thrive well into the future. We 
have a distinguished panel of witnesses from across the 
spectrum to share their thoughts with us on this important 
issue, and I look forward to hearing from them.
    As home to the Nation's oldest track, the Saratoga Race 
Course, my home area has been long steeped in the storied 
tradition of horseracing, dating back to 1863. The equine 
industry is an important economic driver for the State of New 
York, with an estimated economic impact of some $5.3 billion 
annually.
    In 2015, I had the chance to see in person the sport at its 
very best when I bore witness to the historic run by American 
Pharoah at the Belmont track to capture the Triple Crown.
    When we place a majestic equine athlete like American 
Pharoah or our newest Triple Crown champion, Justify, front and 
center, this endeavor can capture truly the imagination of our 
nation, and the sport of the horseracing can continue to grow 
in our hearts.
    However, we have all seen the devastating results that can 
occur when these equine athletes are pushed beyond their 
limits, often aided by medications that can mask underlying 
health issues. This dangerous race-at-all-costs mentality 
denigrates the sport and should be unacceptable to anyone in 
the horseracing community.
    This same story has played out countless times across the 
country because the current voluntary national uniform 
medication reforms have been implemented unevenly, leaving 
patchwork systems in place that have created a wide disparity 
in the effectiveness of medication testing and enforcement.
    This piecemeal, voluntary approach is not only detrimental 
to the health of our beloved horses, it denigrates the 
perception of the sport and certainly puts other athletes, like 
our jockeys, at risk.
    Now, my colleague Andy Barr indicated some of the 
statistics on those voluntary medication efforts, so I won't 
repeat them. But if horseracing is to thrive as an industry and 
once again capture the public's imagination, we must and we can 
do better.
    On this point, the public strongly agrees. More than 90 
percent of the public and 90 percent of horse players want to 
see stronger action on uniform medication reform. In a sport 
built on the integrity of competition, nothing is more 
important than a level playing field for the horses, the 
jockeys, and the trainers who compete, as well as the fans who 
wager on the races.
    While the voluntary approach is well-meaning, the lack of 
effective followthrough has negatively impacted the perception 
of fair competition across the sport and has done little to 
build confidence in the minds of our sports fans and our sports 
critics, many of whom are concerned about drug use and testing.
    By creating a strong, transparent, and independent--let me 
repeat that--independent anti-doping authority, we can 
guarantee fair play, improve the health of our horses, and 
bring new energy and spectators to this majestic sport.
    That is why I have joined with my friend Representative 
Barr in introducing the Horseracing Integrity Act. The 
legislation we have introduced would create a national, 
independent horseracing anti-doping authority responsible for 
rulemaking, testing, and enforcement oversight regarding drugs 
and medication.
    This new organization would be chaired by representatives 
at the independent United States Anti-Doping Agency, or USADA, 
a nonprofit, nongovernmental institution. The board of the new 
organization would also include voices representing a spectrum 
of perspectives within the horseracing industry, including our 
owners, our breeders, our horsemen, our racetracks, and 
certainly our veterinarians.
    The new organization would be responsible for determining 
permitted and prohibited substances, a schedule of sanctions 
for violations, testing procedures, standards, protocols, 
laboratory accreditation procedures, and due-process procedures 
for violations.
    Many have questioned why horseracing should be partnering 
with USADA, an organization with no history in the sport. While 
the physiological makeup of horses and humans are different, 
the need and method for effective testing protocols, uniform 
standards and penalties, as well as proper lab accreditation is 
the same. This is where USADA's real strength as an 
organization lies.
    The horseracing anti-doping authority approach would 
implement horseracing industry best practices for uniform 
testing, uniform penalties, well-designed out-of-competition 
testing, and fully accredited labs to deter cheaters and 
appropriately penalize violators.
    One of the major strengths of this legislation is that, 
from the outset, we engaged a broad coalition of stakeholders, 
both inside and outside the industry, interested in medication 
reform. That is why we were able to gain support from a diverse 
range of organizations, including animal welfare groups like 
the Human Society of the United States; horse groups like The 
Jockey Club, the Breeders' Cup, the New York Racing 
Association, and the grassroots Water, Hay, Oats Alliance; in 
addition to some of the largest track owners in our country. 
Since the legislation was introduced, we have broadened this 
coalition even further and look to work with any stakeholder 
interested in uniformity and clean sporting.
    Again, I look forward to hearing from our diverse panel 
today about what they are seeing on the ground and how best we 
can move forward together to strengthen this sport of kings.
    With that, Mr. Chair, I yield back the balance of my time.
    [The prepared statement of Mr. Tonko follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much.
    The gentleman yields back.
    And I want to thank you both for your testimony before us 
today.
    And that will conclude our first panel of witnesses, and we 
will move on now to our second panel.
    So thank you very much, gentlemen, for your testimony.
    Mr. Tonko. Thank you.
    [Pause.]
    Mr. Latta. Well, thank you very much for appearing before 
the subcommittee.
    And as I mentioned a little bit earlier, we informally 
passed on the gentlelady from Illinois' opening statement, so 
at this time she is recognized for 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you. I thank the chairman for that 
courtesy and the indulgence of the panel.
    And thank you all for being here.
    The Horseracing Integrity Act introduced by Representatives 
Barr and Tonko is a critical piece of legislation. It is past 
time that we address the glaring issues within the horse 
industry.
    This is very personal for me. As a former owner of a horse, 
named B.J. Sullivan, I know how important these majestic 
animals are. I have fond memories of tending to and riding 
horses with my grandfather as a young girl.
    I have also been a longtime supporter of animal welfare 
protections. You should just know, of all the issues that are 
going on, animal rights of some sort, always in the top five of 
the communications that I get from my constituents, which I 
find really interesting, ranging from pollinators to dogs and 
cats and all other kinds of endangered species.
    I am happy that Representative Barr and Tonko have 
introduced this updated legislation, and I am proud to be a 
cosponsor. I was the lead cosponsor of similar legislation in 
2013 with Representative Pitts that addressed some of the same 
concerns with doping and horseracing. The new Barr-Tonko bill 
incorporates many of those things.
    Specifically, the legislation was expanded to include 
Standardbred and Quarter Horses. All racehorses should be 
afforded the same protection under this legislation.
    Most notably, it places a ban on race-day medication, which 
I feel is the most important change to the legislation. Drugs 
such as LASIX are often misused in order to increase a horse's 
performance during the race. Proponents of using LASIX will 
claim that it is similar to giving a horse a vaccination and is 
used to prevent bleeding. However, the reality is that the drug 
is masking an underlying health issue with the horse as well as 
the possible presence of illegal substances.
    The use of these drugs jeopardizes the long-term health and 
safety of the horse. More than 90 percent of the horses in the 
United States compete on LASIX. In most international racing, 
the drug is banned on race day. The United States should learn 
from those other countries. We are literally running horses 
into the ground.
    Recent data by the American Jockey Club found that 493 
Thoroughbred horses died in 2017. If human athletes were dying 
at this rate while racing, it would be clear that there was a 
problem that needed to be fixed. These glaring numbers harm the 
integrity of the industry.
    Horses in these sports deserve real protections. For too 
long, we have allowed the industry to self-regulate without any 
real progress in ensuring protection and stopping the bad 
actors. The Horseracing Integrity Act would address many of 
these issues plaguing the industry. It would allow an 
independent regulatory body to oversee the industry, create a 
national standard that ensures states are following the same 
rules, and implement a uniform anti-doping program that 
prohibits race-day drugs.
    The future of horseracing depends on this universal 
regulatory body. We must ensure that we are protecting horses 
and stopping the bad actors who are endangering the lives of 
these horses, jockeys, and the fate of the industry itself that 
so many people love. If we have banned doping in other sports, 
why not ban it in the horseracing industry?
    I look forward to hearing the testimony on how we can 
continue to protect equines and the integrity of the 
horseracing industry.
    And I yield back. Thank you.
    Mr. Latta. Thank you.
    The gentlelady yields back the balance of her time.
    And, again, I want to thank our witnesses for coming before 
us today to testify.
    Our second panel of witnesses will be able to present with 
a 5-minute opening statement followed by a round of questions 
from our members.
    Our second witness panel for today's hearing will include 
Mr. Alan Foreman, the Chairman and CEO of the Thoroughbred 
Horsemen's Association, Inc.; Mr. Stuart S. Janney, Chairman of 
The Jockey Club; Mr. Eric Hamelback, the CEO of the National 
Horsemen's Benevolent and Protective Association; Ms. Kitty 
Block, Acting President and CEO of the Humane Society of the 
United States; Mr. Ed Martin, the President of the Association 
of Racing Commissioners International; and Mr. Craig Fravel, 
the CEO of the Breeders' Cup.
    Again, we want to thank you all for being here today.
    And, Mr. Foreman, you are recognized for 5 minutes for your 
opening statement. Thank you very much.

 STATEMENTS OF ALAN M. FOREMAN, CHAIRMAN AND CEO, THOROUGHBRED 
 HORSEMEN'S ASSOCIATION, INC.; STUART S. JANNEY III, CHAIRMAN, 
   THE JOCKEY CLUB; ERIC HAMELBACK, CEO, NATIONAL HORSEMEN'S 
  BENEVOLENT AND PROTECTIVE ASSOCIATION; KITTY BLOCK, ACTING 
  PRESIDENT AND CEO, HUMANE SOCIETY OF THE UNITED STATES; ED 
    MARTIN, PRESIDENT, ASSOCIATION OF RACING COMMISSIONERS 
    INTERNATIONAL; AND CRAIG FRAVEL, CEO, THE BREEDERS' CUP

                  STATEMENT OF ALAN M. FOREMAN

    Mr. Foreman. Thank you, Chairman Latta, Ranking Member 
Schakowsky. Good morning, members of the subcommittee.
    I am proud and honored to be invited to participate this 
morning to defend the honor and integrity of the racing 
industry and to oppose what is tantamount to a Federal takeover 
of a state-sanctioned, state-regulated industry where no basis 
to do so exists.
    H.R. 2651 is not in the best interests of the racing 
industry and is an ill-conceived effort by certain special 
interests to impose their minority and special-interest views 
on the regulation of our industry. We have deep reservations 
about the provisions contained in this legislation because of 
its potential adverse impact on the health, welfare, and safety 
of our horses and the economics of the industry.
    Although the proponents would have you believe that this 
bill is a simple effort at uniformity that enjoys broad-based 
industry support, nothing could be further from the truth. 
While certainly this legislation has been divisive, there is 
broad-based consensus, a remarkably broad consensus, comprising 
more than 55 industry organizations and stakeholder groups, 
covering all 3 racing breeds, the regulators, and the 
veterinary community, and that consensus is united in its 
opposition to H.R. 2651.
    H.R. 2651 purports to create a system for the uniform 
regulation and use of medication in the racing industry, but 
such a uniform system already exists, and it works well. 
Performance-enhancing drugs are not allowed in a horse on race 
day in horseracing, unlike in human professional and amateur 
sports competitions. There is total uniformity on this issue in 
every racing jurisdiction. And racing has uniform rules, 
policies, guidelines, and laboratory testing in all racing 
states that are superior to any sport or business in the world. 
And our system is totally transparent.
    We strongly support the existing mechanism by which 
medication policies are formulated. These scientifically based 
policies form the basis of the regulatory scheme currently in 
place, made after thoughtful deliberation and dialogue that 
includes input from an important array of organizations, 
including, most importantly, the Racing Medication and Testing 
Consortium, which serves as the industry's scientific and 
policy arm.
    As a demonstration of the ongoing efforts to improve our 
current system, the racing industry is currently in the process 
of adopting major changes nationally in five areas identified 
as in need of improvement, including enhanced out-of-
competition testing.
    H.R. 2651 seeks to replace our current state regulatory 
system with a new Federal bureaucracy on top of a state system 
that has existed for over a century, with governance stripped 
from the states and given to a private group of handpicked, 
uninformed, and unqualified individuals who know little to 
nothing about the racing industry or the health and welfare of 
the horse, including USADA, which does not now nor has it ever 
had any involvement in the equine sport.
    It contains an unfunded mandate that gives unfettered 
taxing authority to this private, federally appointed group 
without any accountability to the states with the taxes to pay 
for their bureaucracy that will be ultimately assessed to horse 
owners. It will deprive horsemen of their current due-process 
protections under state law and throw them into the Federal 
judicial system.
    We believe that H.R. 2651, like its predecessor version 
that the Congressional Research Service previously deemed most 
likely as being unconstitutional, is unconstitutional for the 
same reasons and, more particularly, in light of the Supreme 
Court's recent decision in Murphy v. NCAA. I can assure you 
that H.R. 2651, if passed, will be challenged in court by 
states objecting to a Federal takeover of their state-
sanctioned and state-regulated industries, and our industry 
will be consumed in costly and protracted litigation that can 
only harm its economic well-being.
    So the question, therefore, that has to be asked is: What 
is the crisis? What is the overriding Federal interest that 
requires the Federal Government to cast aside the states in a 
sweeping takeover of a state-sanctioned, state-regulated 
industry that does its jobs well? The answer is: There is none, 
because H.R. 2651 is not really about uniformity.
    Couched as an attempt at nationwide uniformity on the issue 
and regulation of medication in racing, which the industry 
already does quite well, this bill is actually nothing more 
than a smokescreen for the proponents' true purpose, which they 
have unsuccessfully been trying to accomplish for the past 5 
years: the elimination from racing of a safe, prophylactic, 
effective, necessary medication known as LASIX given on race 
day.
    H.R. 2651 enables an end-run around a 30-year industry 
scientifically based welfare policy that has been universally 
adopted by state regulators. To eliminate this medication would 
cause great economic consequences throughout every level of 
this industry and cause the greatest equine welfare crisis we 
have ever known. This is not hyperbole; this is fact.
    Finally, our mandate which drives everything we do in this 
industry is to protect the health and welfare of the horse, the 
integrity of our sport, the fairness of competition, and the 
best interest of the betting public. I can assure this 
committee that there is not a day in this industry when we are 
not laser-focused on these core principles. H.R. 2651 does not 
meet these standards.
    Thank you.
    [The prepared statement of Mr. Foreman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony.
    Mr. Janney, you are recognized for 5 minutes.

               STATEMENT OF STUART S. JANNEY III

    Mr. Janney. Good morning, Mr. Chairman, Congresswoman 
Schakowsky, and distinguished members of the committee. Thank 
you for the opportunity to speak at today's hearing on the 
Horseracing Integrity Act of 2017.
    This issue is extremely important to the Thoroughbred 
industry and especially to The Jockey Club, which has been 
advocating for medication reform in our sport for decades. The 
Jockey Club is the breed registry for the Thoroughbreds in the 
United States and Canada. As the chairman of The Jockey Club, I 
would like to explain why this legislation is so important to 
us.
    If we reflect on racing's history, we understand that until 
the 1960s racing was local. I grew up in Maryland, and my 
parents were very successful in Maryland racing. On rare 
occasions, they ventured to New York with a good horse, but, 
essentially, they raced only in Maryland. Who bet on their 
horses? People in Maryland who went to the Maryland tracks. 
Thus, it made sense that their racing activities were regulated 
by the State of Maryland. And, by and large, it worked.
    Then, two things happened. First, people learned how well 
horses travel. They can step off a van in the morning, run well 
in the afternoon, and then travel home that night without a 
problem. Second, interstate simulcasting was introduced. In 
1978, Congress passed the Interstate Horseracing Act, which 
enabled simulcasting and wagering across state lines.
    However, the state regulatory structure never changed. I 
want you to realize that our Triple Crown races are conducted 
under different sets of rules--what drugs can be administered, 
withdrawal times for those drugs, penalties, and security 
protocols. They are all different. Over the last couple of 
weeks alone, I have run horses in New York, New Jersey, 
Maryland, and Kentucky. In total, I need licenses in nine 
states, every one with a different set of rules.
    These are the facts of thoroughbred racing today. Our sport 
is international. Our horses are sold to buyers around the 
world. Our stallions shuttle among continents, and bets cross 
state and national borders. And that is the fastest growing 
segment of our wagering.
    We are entering an age of sports betting when racing will 
hopefully share betting platforms with many other sports, none 
of which play by different rules on a state-by-state basis.
    Opponents of this bill will tell you instances of cheating 
are remote, drug positives declining, the states are well on 
their way to uniformity, that the rules we have are fine, that 
their horses need race-day medication even though the rest of 
the world prohibits it, that out-of-competition testing isn't 
necessary.
    Well, let me tell you about Murray Rojas, a trainer in 
Pennsylvania who is charged with wire fraud, conspiracy, and 
misbranding of prescription drugs. A fellow trainer testified 
that private veterinarians told horsemen which drugs were being 
tested for at the state's lab. Horsemen, of course, requested 
race-day treatments accordingly to avoid getting caught, based 
on that knowledge. That was bad, but the performance of the 
racing commission was worse. They did nothing, and the FBI had 
to get involved.
    It is naive to suggest that these problems are not 
occurring in other states. Travis Tygart, CEO of the United 
States Anti-Doping Agency, will tell you that the most 
important part of USADA's system is out-of-competition testing. 
When you don't know when you are going to be tested, when you 
know your samples will be tested by an accredited lab and held 
for years, when you know you will be penalized, then you have a 
real deterrent against cheating.
    I am sure many of you wonder why any industry would ask 
Congress to engage in an area that has been the domain of state 
regulators. Well, despite decades of trying to achieve 
uniformity by self-regulation, we have failed. Also, Congress 
and this committee in particular helped save our industry by 
passing the aforementioned Interstate Horseracing Act, and we 
hope you can do so again.
    We strongly believe that our sport needs an independent 
organization to apply uniform rules, stringent out-of-
competition testing, tough penalties, and effective enforcement 
procedures. These measures will ensure clean competition and 
improve safety for horses and humans alike. This is consistent 
with The Jockey Club's core belief that horses should compete 
only when they are free from the influence of medication.
    We very much look forward to working with you.
    Thank you.
    [The prepared statement of Mr. Janney follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. The subcommittee thanks you for your testimony 
this morning.
    And, Mr. Hamelback, you are recognized for 5 minutes. Thank 
you.

                  STATEMENT OF ERIC HAMELBACK

    Mr. Hamelback. Thank you, Mr. Chairman, Ranking Member 
Schakowsky, and distinguished members. I appreciate the 
opportunity to testify before you today.
    My name, again, is Eric Hamelback. I am the CEO for the 
National Horsemen's Benevolent and Protective Association, 
located in Lexington, Kentucky. We are the largest organization 
representing close to 30,000 owners and trainers of 
Thoroughbred racehorses in the U.S. and Canada.
    I have been involved with horses my entire professional 
life. Before assuming my current position, I did everything 
from mucking stalls to managing one of the largest breeding 
operations in the world--a true horseman.
    I wish to state emphatically that the National HBPA and the 
vast majority of Thoroughbred organizations and two other 
organizations representing racing breeds, the U.S. Trotting 
Association and the American Quarter Horse Association, are all 
on the record in firmly opposing the enactment of H.R. 2651.
    The HBPA believes that owners and trainers who cheat by 
administering drugs with no legitimate therapeutic use in 
racehorses should be severely penalized. Doping is illegal, and 
it is immoral.
    Data maintained by the state racing authorities compiled by 
the Association of Racing Commissioners International shows 
conclusively that doping of racehorses in the U.S. is rare. In 
fact, the horseracing industry spends millions of dollars on 
comprehensive testing each year.
    In 2017, there were over 354,000 biological samples taken 
by regulators in the U.S. Only 169 of those tests were positive 
for drugs that had no business being in the horse. So, to put 
it plainly, 99.9 percent of all tests were negative of any 
doping substance. That is a record that should be the envy of 
every sport that tests for illegal drugs.
    Another stat worth noting is that the states representing 
95 percent of the dollars wagered in the U.S. are under the 
same controlled therapeutic medication list, and 100 percent 
are under the uniform prohibiting performance-enhancing 
medications.
    The HBPA, along with the American Association of Equine 
Practitioners and the North American Association of Racetrack 
Veterinarians, draw a very clear distinction between doping and 
lawful therapeutic medications, such as furosemide, commonly 
called LASIX.
    LASIX is effective in preventing and mitigating bleeding in 
the lungs, a condition that we call exercise-induced pulmonary 
hemorrhaging. It is transparent to the public, and it has been 
safely used for over 40 years. The HBPA supports the use of 
LASIX and other therapeutic medications for the health and 
welfare of our horses.
    The American Veterinary Medical Association, representing 
more than 91,000 veterinarians who have no vested interest in 
horseracing, support the AAEP's policy, which clearly states 
the use of LASIX on race day is the most efficacious way to 
control EIPH. These veterinary experts should not be ignored.
    And yet a minority of voices has called for the ban of 
LASIX on race day. Those who do so equate usage of LASIX to 
doping. That is false. The scientific, clinical evidence 
establishes the facts about LASIX, which include: Nearly all 
racehorses bleed to some varying degree, and they have a grade 
of EIPH. LASIX does not prevent post-race detection in other 
drugs. That is a myth. LASIX is not performance-enhancing. It 
does not make a horse run faster than its God-given ability to 
do so. And, finally, LASIX is a choice. You have the choice, as 
an owner or trainer, to use it.
    Some proclaim that the rest of the world does not use LASIX 
and neither should we. Well, that is misleading at best. LASIX 
is widely used in training in other countries. From a horse and 
welfare standpoint, that makes no sense to me. Rather, it 
should be used on race day, when the stress of competitive 
racing heightens and the risk of harm caused by the internal 
bleeding increases.
    So, in summary, there is no need for the Federal Government 
to reinvent the wheel by establishing a new regulatory 
structure where the state structure is already working well. 
And a new Federal structure would likely take years to gain the 
necessary knowledge and would cost millions of dollars. H.R. 
2651 is not needed. The job we are doing is being done very 
well.
    Thank you, Chairman. And I appreciate the opportunity to be 
here, and I am happy to answer any questions as a horseman.
    [The prepared statement of Mr. Hamelback follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony.
    And, Ms. Block, you are recognized for 5 minutes.

                    STATEMENT OF KITTY BLOCK

    Ms. Block. Thank you. On behalf of the Humane Society of 
the United States and its affiliate, the Humane Society 
Legislative Fund, I appreciate this opportunity to testify in 
support of H.R. 2651.
    Thank you, Chairman Bob Latta and Ranking Member Jan 
Schakowsky, for holding this hearing and to Representatives 
Andy Barr and Paul Tonko for introducing this important 
legislation.
    First, I want to make clear our position on horseracing and 
our interest in this legislation. We are not opposing 
horseracing. Our interest is improving the welfare and 
treatment of all animals, including racehorses.
    In 2016, we formed a National Horse Racing Advisory 
Council. Our goal was to facilitate the exchange of information 
between people who have spent a lifetime in this industry and 
those of us who care about equine welfare. This impressive 
council includes industry experts from The Jockey Club, 
racehorse breeders, former state racing commission officials, 
and two hall-of-fame jockeys and is chaired by the former owner 
of Pimlico.
    We believe that everyone who makes a living from this 
industry has an obligation to protect and enhance the welfare 
of horses, who are at the heart and soul of this business.
    Throughout history, horses have played a key role in the 
development of our society. They are majestic creatures who 
have served us in so many ways, from plowing our fields to 
fighting in our wars. And, today, we partner with these equine 
athletes in numerous competitions, races, and recreational 
riding. Horses have often served as a symbol of the American 
spirit. We have a duty to care for them humanely and to not put 
them in harm's way and to provide a safe and comfortable life 
for them once their racing career has ended.
    It is a glaring oversight, therefore, that there is no 
national regulatory body for horseracing. And this creates a 
disparity of racing regulations and uneven enforcement in the 
U.S. I also serve as the Humane Society International 
president, which is the HSUS's global arm, so I am keenly aware 
that the U.S. is lagging behind other nations with racehorsing 
traditions. In particular, we have offices in the U.K. and 
Australia, where the horseracing industry is successful without 
the use of race-day medications.
    The ethical issues in horseracing are closely related to 
concerns raised about doping in a variety of Olympic 
competitions and professional sports. These industries all have 
policies against certain types of drug use, and high-profile 
incidents have left the public concerned about the extent of 
the problem in these sports.
    The racing industry continues to lag behind because too 
many stakeholders want to maintain the status quo. And the use 
of illegal substances is not the only problem. Legal 
therapeutic drugs are also problematic, as they can allow a 
horse to push through pain, intensifying injury, which can lead 
to breakdowns, career-ending injuries, and death for both horse 
and jockey.
    This industry has had decades to clean up its act, but it 
has been unable to do so. This is neither an impulsive 
government intervention nor an unnecessary one. It comes after 
the death of thousands of horses, declining fan interest, and a 
general crisis of confidence in the sport. It is a national 
industry, and it demands consistent standards rather than the 
current patchwork of state racing regulations.
    Additionally, as this subcommittee knows well, Congress has 
for the past decade wrestled with the problem of healthy 
American horses being funneled into the slaughter pipeline, 
including horses coming from the racetrack. Racehorses with 
drug-related injuries are often sent to slaughter once the 
horses are no longer able to run.
    Horses can live well into their 20s and 30s, and their 
racing careers generally span only the first 5 years of life. 
Horses who are healthy when they retire from racing are in a 
far better position to transition to second careers and less 
likely to be sold to killer buyers. If you agree with the 80 
percent of Americans who oppose the slaughter of horses for 
human consumption, this bill will reduce the number of broken-
down racehorses killed for their meat.
    As an animal protection organization, we have seen 
repeatedly that any industry taking shortcuts on animal welfare 
will see a loss of public support. Undeniably, for a variety of 
reasons, the horseracing industry is in decline. It is critical 
that this industry strive to meet the highest standards of 
animal care. We shouldn't put horses' lives at risk, as there 
is an alternate path.
    Thank you.
    [The prepared statement of Ms. Block follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony.
    And, Mr. Martin, you are recognized for 5 minutes.

                     STATEMENT OF ED MARTIN

    Mr. Martin. Thank you very much, Mr. Chairman. I very much 
appreciate the opportunity to be here.
    And I was instructed firmly by the chairman of the Ohio 
State Racing Commission to stand up for the Standardbreds in 
Ohio that race in your state as well as all the horses who race 
in everybody else's states.
    I am here to explain what is done to police the sport of 
horseracing by the states, put it in perspective with other 
sports, address misconceptions some people have, and identify 
where we believe the real need is to protect the welfare of the 
horse.
    There have been a lot of things said so far, and I would 
urge--I can't squeeze them all into 5 minutes, but I have a 
rather lengthy written testimony that addresses almost 
everything that has already been said.
    The ARCI sets standards for thoroughbred, standardbred, and 
quarter horse racing. We represent the state regulators in the 
U.S., the Federal and provincial regulators in Canada, as well 
as the national regulator in several other jurisdictions. Our 
model rules and drug classification systems are respected 
worldwide, and some jurisdictions have adopted portions of the 
model rules by reference.
    First, let me say that the state racing regulators are 
totally uniform in prohibiting the presence of performance-
enhancing drugs in a horse when it races.
    Secondly, there is total uniformity in the adoption of a 
30-year equine welfare policy to permit a voluntary race-day 
equine welfare treatment known as LASIX.
    Third, with the exception of two states, the drug testing 
labs are internationally accredited. There is also total 
uniformity in the use of progressive penalties and substantial 
uniformity in adoption of testing thresholds for 30 appropriate 
medications deemed normal and appropriate for equine care.
    State racing commissions do more testing in racing than any 
other professional sport. Last year, 354,000-plus biological 
samples were sent to the labs. By comparison, all of the World 
Anti-Doping Agency labs tested 300,000 samples and the U.S. 
Anti-Doping Agency tested 13,000 samples.
    And to compare the programs, you have to look at the 
results. The clear rate in U.S. racing commission testing, 
USADA testing, and WADA testing is comparable. When you look at 
the substances being detected by the WADA labs, which are 
readily available on the internet, you will see that they are 
not catching anything that the state racing commissions don't 
catch or have the ability to catch.
    Does that mean we don't have a challenge? No. We do have a 
challenge. We have the same challenge that every other sport 
has: use of substances that are undetectable or unknown. But 
based upon the numbers, which are factual and maybe 
inconvenient for those advocating this bill, horseracing does 
as good a job or as bad a job as the Olympics or any other 
sport.
    It is a little-known fact that the standards in horseracing 
are stricter than they are under the World Anti-Doping Agency 
because we do not permit athletes to obtain permission to use 
performance-enhancing drugs in competition, as is allowed under 
the therapeutic-use exemption provisions of the WADA code.
    According to the 2016 USADA annual report online, they 
approve about 81 percent of their use exemption requests. And 
athletes are given permission to use hormones, stimulants, 
narcotics, cannabinoids, and a host of other drugs that we 
would never, ever, ever allow to be in a horse when it races. 
Now, consider that there is going to be an expansion of sports 
betting. There are things allowed in human sport that we don't 
allow in horseracing.
    The anti-doping and medication policies we have are 
developed by considerable input from a network of anti-doping 
experts as well as the veterinary community. We are opposed to 
this bill because it is a radical and unnecessary 
federalization of a state responsibility that is exercised 
effectively.
    I would like to conclude by saying this. In most states, 
the regulatory jurisdiction over the horse does not reach young 
horses intended to become racehorses. As the bones of these 
young horses mature, the stage is set for their racing career. 
But there are drugs being used on these horses that the FDA has 
warned veterinarians about their safety, yet they are being 
used and used widely. Our concern is that their use may 
adversely affect bone development in ways that can contribute 
to stress fractures, which we already know are linked to 
catastrophic breakdown.
    This is the unregulated aspect of the sport, and we believe 
it needs to be addressed if we are serious about protecting our 
horses. This is controversial because it starts a discussion on 
regulating a part of the industry that currently has no 
regulatory oversight.
    We ask that this subcommittee clearly put an end to the 
debate on H.R. 2651. Only then can the industry, its 
regulators, interested public organizations, and interested 
lawmakers get on the same page on how to address ways to 
protect our horses. There are things the Federal Government can 
do to help; this proposal is not one of them.
    [The prepared statement of Mr. Martin follows:]
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    [The attachments to Mr. Martin's statement can be found at: 
https://docs.house.gov/meetings/IF/IF17/20180622/108463/HHRG-
115-IF17-Wstate-MartinE-20180622.pdf.]
    Mr. Latta. I thank the gentleman for your testimony.
    And, at this time, Mr. Fravel, you are recognized for 5 
minutes for your statement. Thank you.

                   STATEMENT OF CRAIG FRAVEL

    Mr. Fravel. Mr. Chairman, Ranking Member Schakowsky, and 
members of the committee, it is a great privilege to have the 
opportunity to address you today and to advocate for the 
passage of the Horseracing Integrity Act of 2017.
    My name is Craig Fravel, and I am the president and chief 
executive officer of Breeders' Cup Limited. Our mission at 
Breeders' Cup is to promote the racing and sale of Thoroughbred 
horses through the conduct of the Breeders' Cup world 
championships--in my view, the preeminent international 
championships in all of Thoroughbred racing.
    I wish to begin my comments by emphasizing that I am not 
here to tear down this great sport. You will hear from others 
that we have made great strides in medication reform and 
enforcement over the last 10 years, and I do not debate that.
    My comments today, however, are about the problems we still 
face with the day-to-day conduct of racing and the confidence 
of the wagering and nonwagering public in our product and about 
conducting the sport under common rules administered 
consistently and fairly for all.
    When racing was reintroduced in the 1930s and 1940s, it was 
a highly local sport, governed by state regulatory authorities 
in those states that chose to permit parimutuel wagering. There 
was no wagering across state lines, at least not legally. And, 
for the most part, horses stayed put in the regions or states 
they called home, with some shipment to winter tracks in 
Florida or California or even to Bowie, near here, in my home 
State of Maryland. While horses did travel to participate in 
the Triple Crown races, for the most part it was a local game 
understandably played under local rules.
    Today, by contrast, wagering is primarily a simulcasting 
effort. And since the mid-1990s, an increasing share of our 
handle is placed online through authorized and highly regulated 
advance-deposit wagering companies. It is now commonplace for 
horses to ship from state to state, from California to New York 
and vice versa, or from overseas. This week, for example, there 
are U.S.-based horses running at the Royal Ascot meeting on the 
grounds of Windsor Castle, as guests of Her Majesty, Queen 
Elizabeth II. And last year at the Breeders' Cup in Del Mar, 
California, there were 38 international runners from Ireland, 
the U.K., France, and South America.
    It is a modern sport now that is global in scope and that 
faces the challenges associated with all sports, whether human 
or equine. The challenges are modern, particularly in the world 
of medication, both legal and illegal. Again, there has been 
progress, but, for the most part, we remain a locally governed 
sport with different regulatory and enforcement capabilities in 
each state.
    Yet we all need to be aware of the potential abuse of 
designer drugs, synthetic steroids, and similar agents and the 
possibilities ahead for manipulation of the equine genome to 
create or alter physical traits of our competitors.
    These modern challenges require concentrated, efficient, 
and sophisticated national programs for investigating 
regulatory matters, researching threats, testing, and 
prosecution. An international sport deserves the most advanced 
form of regulatory mechanism, not one based on 38 different 
state agencies with varying levels of funding, expertise, and 
experience.
    As I have said many times, if we were starting from 
scratch, knowing what we know now, would we have created a 
national organization such as the one contemplated by the 
Horseracing Integrity Act, or would we have 38 different 
rulemaking and enforcement bodies? I think it is obvious that 
we would choose the former and not the latter.
    The current process for national rulemaking remains 
unusually cumbersome. Let me give one example. And while it 
made sound like I am picking on my friends in California, I 
don't mean to single them out.
    California is one of the most capably regulated states. 
Yet, when it came time to adopt the third-party LASIX 
administration leg of the RCI/RMTC National Uniform Medication 
Program, the regulation took almost 4 years to adopt. 
Unfortunately, the Breeders' Cup had to adopt house rules to 
effectuate this important reform when running in California.
    From start to finish, the time a model rule is adopted, the 
implementation process across 38 states can take years. That is 
not to say that rulemaking should be fast-tracked all the time, 
nor should it be arbitrary. It should, however, allow for 
quicker implementation across state lines, as contemplated by 
the Horseracing Integrity Act.
    Before I became a racing executive, I spent the first part 
of my career as a securities lawyer, beginning my practice here 
in Washington, D.C. Having practiced law in that arena, I am a 
big believer in the power of consumer confidence in a 
product,and the fact that the Securities and Exchange 
Commission has primary regulatory authority over the securities 
industry engenders consumer confidence in financial reporting, 
fair trading, and efficient markets. While there of course have 
been failings, on the whole, the public has confidence in the 
markets.
    And I believe a commonsense approach to regulation in our 
thoroughbred business will enhance consumer confidence and 
bring about extraordinary gains economically as we present our 
great sport in the best light possible--the sort of light that 
deserves to be shone on such a great game.
    Mark Twain just once said that it is a difference of 
opinion that makes horseracing. It is my sincere hope that the 
differences of opinion we argue about in the future are about 
who has the best horse, not about how our sport is regulated 
and conducted.
    Thank you.
    [The statement of Mr. Fravel follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. And thank you very much for your testimony 
today.
    And that will conclude our testimony from our witnesses, 
and we will now move on to our questions and answers from our 
members to our witnesses.
    And, at this time, I am going to begin with recognizing the 
gentleman from Illinois, the vice chair of the subcommittee, 
for 5 minutes of opening questions.
    Mr. Kinzinger. I thank the chairman, and I thank you all 
for being here. And the sponsors of this legislation, thank you 
for your hard work and interest.
    It has actually been pretty interesting; there has been a 
lot of input on this issue since this hearing was announced, 
and we appreciate that. These are very important things that we 
are dealing with here, and I look forward to continuing to 
wrestle with these issues.
    Mr. Janney, some breeders use osteoporosis medication on 
young horses to increase bone density in those with signs of 
bone disease. And reports indicate that some breeders use them 
without good cause and in very young horses, sometimes to 
improve the horse's x-ray images and other test results to make 
the horse more marketable to buyers.
    So my question is: Are racehorses regulated and monitored 
from birth or only once they enter racing? And, further, if 
they are only regulated during racing, doesn't that mean that 
the breeders are actually the ones being allowed to operate 
without an outside authority ensuring the safety of the horses?
    Mr. Janney. I think that there is certainly an element of 
truth to what you are saying. I believe the answer would be 
that the real regulation of horses comes when they make their 
first appearance at the racetrack.
    And you do have a lot of sales that require horses to 
present themselves in the very best way that the buyers may 
like or to work a certain distance of ground at a later date so 
that they are attractive to buyers. And I think that is an area 
that does need to be looked at. Mr. Martin has said that is 
important; I think it is important too. We need a level playing 
field.
    I don't think horses should be asked to do at a young age 
what they may not be capable of doing. The fact of the matter 
is, when a horse works fast as a juvenile, it attracts buyers. 
And so there is this push to get a horse to work very fast at a 
time in their lives when it may not be appropriate. So I have 
no problem with addressing that issue.
    Mr. Kinzinger. Thank you.
    Ms. Block, my understanding is that racehorses experience 
exercise-induced pulmonary hemorrhaging, which, in layman's 
terms, mean horses can bleed from their noses into their lungs 
during a race. To mitigate the severity of the bleeding, LASIX 
is administered to horses 4 hours before the race.
    I have heard from veterinarian groups that staunchly 
believe LASIX is necessary and its use is in the best interest 
of racehorses, especially for their health and welfare. So I 
have two questions for you on this point.
    First, does scientific research support the use of LASIX to 
protect racehorses from EIPH? And please provide a ``yes'' or 
``no'' on that.
    Ms. Block. I am not a veterinarian, so I would defer to my 
colleagues on that first point. But, please, your second point?
    Mr. Kinzinger. Understanding that the Humane Society's 
mission is to advocate for laws and to protect animals, how can 
you support a bill that bans LASIX on race day, a medication we 
just agreed protects horses--or, from what I have heard, agreed 
protects horses--when the American Association of Equine 
Practitioners, the North American Association of Racetrack 
Veterinarians, and the American Veterinary Medical Association 
all oppose the bill before us?
    Ms. Block. Thank you.
    First of all, we have the Humane Society Veterinary Medical 
Association, and we have close to 10,000 members who support 
this bill and recognize the problems with race-day medications 
in this industry. And so we absolutely feel that this is 
important, this legislation is key. It goes well beyond LASIX. 
It addresses a whole host of issues and problems.
    And as for on race day, a horse out there, before the race 
starts, as people are assembling, with a needle to the horse's 
neck is probably not the best thing everyone wants to see. It 
is not a perception that should be projected. And these horses 
should be able to run clean and safe, as many human athletes do 
in many sports.
    Mr. Kinzinger. I appreciate that. And I think, yes, nobody 
wants to see that, but if it is a medication that protects 
horses, then I think in some cases optics maybe should take a 
second place to actually the protection of the horses.
    Mr. Foreman, the horseracing industry is a state-regulated, 
state-sanctioned industry. And I am a big proponent of states' 
rights, but I also know there can be a need for Federal 
uniformity at times.
    My understanding is that your organization has collaborated 
with others to promote the adoption of national uniform 
medication programs to provide uniformity based on four 
pillars.
    How long have you been trying to get this program adopted? 
And where are you finding resistance, and why?
    Mr. Foreman. Thank you, Congressman. The National Uniform 
Medication Program, and I think the title probably is being 
used against the industry by those who seem to think that we 
don't have uniformity, is the product of many hours and years 
of work by the industry to determine from our existing rule 
book and our existing rules what can we do better to improve 
the regulation of the sport and the safety and welfare of the 
horse.
    And there were initially four areas that were identified. 
One was that there is even a misunderstanding, I think, 
probably among the committee as to what substances are 
administered to a horse. Horses are treated on a daily basis 
with therapeutic medications in their best interest for injury 
or illness.
    There are substances that don't belong in a horse on a race 
day under any circumstances, and the public doesn't understand 
the difference between the two, and that is something that the 
industry has wrestled with. For example----
    Mr. Kinzinger. I hate to do this. I am going to have to--
just because we are going over in time and we have a lot of 
questions. That was my fault for only asking with 20 seconds 
left.
    Mr. Foreman. My fault for talking too long.
    Mr. Kinzinger. No, that is OK.
    Mr. Foreman. But there are four areas: controlled 
therapeutic medication, third-party administration of LASIX to 
get the vets out of the stalls on race day, a multiple-
medication violation penalty system on top of the existing very 
well done disciplinary system, and the accreditation of our 
laboratories.
    The program started in the midatlantic, which is the 
largest concentration of racing in the United States, on 
January 1, 2014. And I have included maps and information in 
our packet that 97 percent of racing jurisdictions have adopted 
the controlled therapeutic medication list. Ninety-six percent 
of our laboratories are accredited. There is only one lab right 
now that is not accredited.
    Mr. Kinzinger. Sir, I am sorry, I am going to have to 
reclaim my time on that. I am sure somebody else may have 
questions on it.
    Mr. Latta. And as always, we will make sure that questions 
that are asked by the committee will be submitted to the 
witnesses and will have the normal 10 days to submit and 
respond to them.
    Mr. Kinzinger. Thank you. And I will just ask unanimous 
consent, I have three things I want to enter into the record 
and also two letters from my constituents on both expressing 
opposition to this legislation.
    Mr. Latta. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Kinzinger. Thank you. I yield back.
    Mr. Latta. At this time, the chair will recognize the 
gentleman from New York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman. Thank you for the 
ability to jump ahead in the process here because of the 
conflicts we have. I, again, thank you and the ranking member 
for the hearing.
    Let me cite Chris McCarron, our wonderful jockey in the 
audience, and it is good to have you here today. Thank you for 
what you brought to the arena, your talent, your ability, your 
passion for the sport. Thank you for expressing your concerns 
about this issue and being supportive of a concept that can 
bring great strength to the industry, seated next to Terry 
Finley, who was so active with my home state's horsemen's 
association. Great to have everyone here.
    Mr. Fravel, in your testimony, you make it clear that 
horseracing is not only an interstate sport but an 
international one. More than 50 percent of horses cross state 
lanes to race, and 90 percent of the handle comes from 
interstate betting.
    With that in mind, can you explain why it would benefit the 
sport if a horse running in Texas ran under the same rules as a 
horse running in, for example, New York?
    Mr. Fravel. Well, I think if one of our challenges is 
making sure that consuming public understands our sports 
better, it is important that we have one set of rules. I mean, 
baseball teams, other than the designated hitter rule, don't 
play under different rules when they travel from one league to 
another, one city to another. And, we have had that problem in 
racing for many, many years. And in the old days, it was fine. 
Horses stayed where they were. The public wagered on site. But 
now, we travel around the world, and we need a modern system to 
enforce our regulations and to create them.
    Mr. Tonko. Thank you.
    And, Mr. Janney, can you describe where the United States 
stands in terms of medication rules in comparison with the rest 
of the world? In what ways does this divergence impact the 
domestic industry?
    Mr. Janney. Well, we have talked a lot about NUMP, and it 
really has, I think, five elements, and I think Mr. Foreman 
would agree with that, because the last one is out-of-
competition testing. So there is some agreement among the 
states as to which substances are on the list, though not as 
complete as has been suggested.
    With third-party LASIX, we are getting there slowly. There 
are places that don't adhere to that rule. With penalties, we 
are getting there to some extent, not as fast as any of us 
would like and maybe not in my lifetime.
    Labs are interesting, because if you don't have good labs, 
you don't really have anything. I am a board member of the New 
York Racing Association. We operate Saratoga, Belmont, and 
Aqueduct. Currently, we have requested of the Governor of New 
York for money in the State budget, which I believe he is going 
to do, for a new lab in New York, which will be up to 
international standards. And that is the most important thing I 
will say, is the lab in New York is in no way up to 
international standards.
    The positives called in New York are one of the lowest in 
the country. Does that mean that people in New York are more 
law-abiding? I don't know. But it is alarmingly lower than any 
other state, particularly for a major racing state. So the 
request is in. There will be study money, I think, for a new 
lab in New York.
    And the CEO of New York Racing has spent a great deal of 
time going around to Hong Kong, to the French lab, to others, 
to the Olympic labs that USADA uses, because there isn't 
anything in this country that meets that standard, the most 
important of which is double-blind testing.
    Mr. Tonko. Mr. Janney, in your opinion, does the 
Horseracing Integrity Act add an additional layer of 
bureaucracy or does it coordinate States into a single rule 
book with penalties?
    Mr. Janney. Well, everybody here has said we need to have 
uniformity. Well, this is the quickest way. This will get 
there, again, in my lifetime. The compact won't. The compact 
was discussed 10 or 15 years ago. One state said yes--that was 
Kentucky--and nobody else.
    You have on your record, the Stronach organization that is 
racing in Florida, California, and Maryland, saying they want 
the horseracing act. You have the New York Authority saying we 
want the horseracing act. So my view on a compact and other 
ways, whether it is NUMP, is that it is more designed to waste 
time. We are not going to get where we need to be, and this act 
does that, and that is why I am so in favor of it.
    Mr. Tonko. Thank you.
    Mr. Fravel, there have been concerns expressed about the 
intent of Horseracing Integrity Act to replace state racing 
commissions. What do you envision the relationship between the 
state racing commissions and the new anti-doping agency as 
being?
    Mr. Fravel. The Act, as currently drafted, allows the new 
horseracing entity to delegate authority to states that as long 
as they are meeting certain standards and quality assurance. So 
I think that the possibility is that these two things will 
exist greatly in cooperation with one another, not replace, but 
simply streamline and make much more efficient the rulemaking 
and enforcement process, which is something that we all tend to 
agree on. So I am not sure I understand the vehemence with 
which some people oppose this if we all are trying to achieve 
the same thing.
    Mr. Tonko. Thank you very much.
    And, Mr. Chair, I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back 
the balance of his time.
    And at this time, the chair will recognize the gentlelady 
from California for 5 minutes.
    Mrs. Walters. Thank you. Thank you, Mr. Chairman.
    Mr. Foreman, in your testimony, you state that H.R. 2651 is 
not the best interest of the racing industry. Why do you 
believe that to be the case?
    Mr. Foreman. I believe it is the case because the existing 
framework with which we work under works well. We are all 
operating under one rule book throughout the country. Our 
industry is regulated by state regulators. The regulation of 
our sport is very similar.
    There is, in my view, no reason to superimpose on what is a 
system that is working very well, a group of people who know 
nothing about the business. I don't think it is realistic that 
the industry is going to roll over and allow others who are 
outside the industry to essentially make the rules for them.
    In the proposal in the legislation actually is doing what 
we are doing now. It is just who is going to be in charge and 
who is going to make those decisions, and I believe that that 
is why states have legalized racing. And no different than any 
other--the lotteries, regulated by the states; sports gaming 
will be regulated by the states; casino gaming regulated by the 
states. Gambling is not for the Federal Government. Horseracing 
is not for the Federal Government.
    If I could just make one correction to a statement that was 
made about our laboratory system, because I think it is 
important. Our labs are all internationally accredited, except 
for one. To say that a laboratory in New York does not meet 
international standards is incorrect. They all must meet 
accreditation under ISO 17025.
    What we have done in the industry is created a code that is 
stricter than the WADA code, and we require our laboratories to 
meet that standard, in addition to international standards. And 
no other laboratories in the world are required to meet our 
standards. We are better than the other laboratories. The 
laboratory in New York is accredited both to international 
standards and to what we call the RMTC Code of Standards.
    Mrs. Walters. Thank you.
    Mr. Fravel, is LASIX used at the Breeders' Cup?
    Mr. Fravel. We tried to eliminate the use of LASIX for the 
Breeders' Cup championships, and because of the provisions of 
the Interstate Horseracing Act we were prevented from doing so. 
We would certainly prefer to run our races under international 
rules that ban the use of LASIX. And I think if you were 
watching your television on NBC this week, you would see 
hundreds of horses at the Royal Ascot meeting without LASIX 
under no duress whatsoever.
    Mrs. Walters. In your capacity as the CEO of the Breeders' 
Cup, have you ever proposed a ban on LASIX?
    Mr. Fravel. Yes. We tried to implement that, and we did 
have 2-year-olds racing without LASIX in 1 year, but we were 
forced to back away from that.
    Mrs. Walters. So how was that received by the industry?
    Mr. Fravel. Many of our members were quite concerned that 
we were not able to enforce our rules and many members of the 
training committee were happy that we were not able to enforce 
those rules.
    Mrs. Walters. Thank you.
    And, Mr. Hamelback, I have several questions for you on the 
use of LASIX. Is the use of LASIX currently mandated?
    Mr. Hamelback. I apologize. The use of LASIX is not 
mandated for any athlete.
    Mrs. Walters. Is the use of LASIX uniform at races, meaning 
are all horses that race administered the medication? Are all 
horses that race administered the medication?
    Mr. Hamelback. I believe the answer is all horses are not 
administered LASIX. If it is administered LASIX, it is publicly 
posted into the program and--but if a choice of an owner and 
their professional with the veterinary acknowledgment does not 
choose to utilize LASIX on their horse, they do not do so.
    Mrs. Walters. OK. How is the veterinarian involved in the 
process?
    Mr. Hamelback. In my opinion, the decision to place your 
horse on the LASIX list, as we would call it, in order to make 
the decision to utilize that therapeutic medication, it is a 
joint decision made by the owner, the veterinarian, and 
ultimately the trainer, or some may say the coach. What would 
happen and should happen, it should be directed under the 
veterinary care, making sure that the health and welfare of the 
individual is most taken care of.
    Mrs. Walters. OK. So if every horse is being administered 
LASIX, does any horse gain a competitive advantage?
    Mr. Hamelback. Not in my opinion. Again, it is very well 
said that LASIX can help in EIPH systems. So by that, if it 
prevents EIPH from occurring, then most certainly it is going 
to allow the horse to perform at its natural talent. If 
bleeding does occur beneath the alveoli of the lungs, then, 
yes, that would inhibit. So in my opinion, it would inhibit the 
horse from actually gaining his advantage of just natural 
talent.
    Mrs. Walters. OK. Thank you. I am out of time. Thank you.
    Mr. Latta. Thank you very much. The gentlelady's time has 
expired.
    The chair now recognizes the gentlelady from Illinois, the 
ranking member of the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Janney, do you believe that we would see fewer 
catastrophic injuries, horse deaths, injuries to jockeys, if we 
banned the administration of drugs during the 24-hour period 
before race day?
    Mr. Janney. Well, I think it would improve the situation. 
Our industry has a very difficult perception problem, 
particularly with LASIX. Now, LASIX, in my view, probably 
doesn't prevent people from figuring out if there are other 
drugs that shouldn't be there. So that is not the issue. The 
issue is sticking a needle in a horse's neck 4 hours before the 
race. They lose more than 20 pounds in a sport which basically 
says weight is important.
    Chris McCarron rode at--what did you ride at? Probably 112, 
113 pounds and with weights. It was a very slight tolerance. So 
the horse loses weight.
    The other thing is, we have a terrible problem with, if you 
look at any betting show, and if I don't run horses on LASIX if 
they are 2-year-olds. I do when they become 3 because I feel 
like I have to compete. I would prefer not to.
    But I will guarantee you that when one of my horses steps 
on the track, that whoever is doing the analysis for the 
betting public will say, you ought to bet on the Janney horse 
because that horse is getting LASIX for the first time.
    And I will follow that up by saying, the Pegasus Cup last 
year, Frank Stronach, who doesn't believe in LASIX, that was a 
$15 million race. Bob Baffert had a horse in there called West 
Coast that was our champion 3-year-old last year. He was going 
to Dubai after that and run without LASIX. But he was offered a 
5-pound weight allowance, so in other words, he would carry 5 
pounds less if he didn't administer LASIX before the Pegasus. 
And Bob Baffert chose to administer LASIX. So I think at least 
Bob Baffert is saying it is a performance-enhancing drug. So 
that would be my answer.
    Ms. Schakowsky. OK. Ms. Block, I understand that most 
racing countries, as you have mentioned--I didn't know that The 
Humane Society actually did exist in the U.K. and Australia--
but also Japan banned certain drugs on race day, but the United 
States permits the use of race-day drugs.
    So what effect does that have on the health of horses that 
race in the United States compared to their counterparts that 
race in other countries where race-day drugs are banned?
    Ms. Block. Thank you. Yes, Humane Society International, 
which is the global affiliate of HSUS, we are actually in 14 
countries and incorporate in 14 countries and work in about 20 
others. So the health of these animals in these other countries 
where there are racing traditions, they are doing just fine. 
There is not any indication that they are ailing or suffering 
because they are not using race-day medications. And so it is a 
standard by which we think that the U.S. should also be able to 
meet.
    And as it has been mentioned, these horses do travel 
internationally. When they are over there in the other 
countries, they are racing just fine. So in an effort to bring 
the U.S. up to this global standard, I think it is necessary to 
pass this legislation.
    Ms. Schakowsky. Thank you.
    OK. Mr. Fravel and Mr. Janney, most countries with 
longstanding horse traditions ban LASIX on race day. Actually, 
Mr. Janney, I think I heard from you on LASIX on race day.
    So let me ask you, for your wife, Mr. Fravel, what do they 
use instead of LASIX to treat or prevent bleeding?
    Mr. Fravel. Well, most international jurisdictions do not 
permit any supplemental treatment for EIPH. For example, Hong 
Kong, probably the most successful racing in the world, the 
highest handle anywhere in the world, has the most rigid and 
well-regulated medication protocols in the world. And horses 
there, they manage to fill races with a population of 1,250 
horses.
    So I think the concern that the sky will fall if we 
prohibited the use of LASIX is unfounded. It happens everywhere 
in the world on a daily basis and the horses get around just 
fine, if not even better than they do here.
    Ms. Schakowsky. And I also appreciate your adding that it 
certainly hasn't hurt the industry either, all those that are 
involved.
    Mr. Fravel. Again, probably the three most successful 
racing jurisdictions in the world--Australia, Japan, Hong 
Kong--all run under regimes that do not permit any 
administration of race-day medication, including LASIX.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Latta. Thank you. The gentlelady yields back.
    The chair now recognizes the gentleman from New Jersey for 
5 minutes.
    Mr. Lance. Thank you, Mr. Chairman.
    And, Mr. Janney, from your testimony, I believe that you 
would like to see uniformity in the medication standards that 
are given to racehorses. Perhaps shouldn't Congress rely on the 
states to adopt the model rules that have already been 
developed?
    Mr. Janney. I am not a young man. I know I look that way, 
but I am 69 years old, and it is my----
    Mr. Lance. You do indeed look young.
    Mr. Janney [continuing]. It is my considered opinion that I 
would never be around to see that day. It will not happen. I 
have worked for the last 20 years being in rooms with other 
people to try to figure all this out. And the status quo for a 
lot of people is exactly what they want. And what I am here to 
do is try to provide the things that are going to be necessary 
for this industry so that my children can enjoy it.
    Now, just before I close, I think Mr. Foreman got it 
backwards on the labs. He said that all but one lab is IFHA 
accredited. That is not right. There is only one lab in the 
United States that is, so it is the exact reverse of what he 
said, and that is the lab at Davis in California.
    Mr. Lance. I will get to you, Mr. Foreman.
    How many states have adopted the model rules so far, sir?
    Mr. Janney. Nobody has adopted all of the rules. The rules 
are five and--they are five elements to NUMP. When I was in 
school, I didn't get a lot of credit for just answering one 
question. So what you heard this morning is that people have 
somewhat agreed on what the list should include of prohibited 
substances. But then it falls off very rapidly, and it 
particularly falls off without a competition testing, which Mr. 
Foreman has identified as one of the most important elements. 
And I can assure you that Lance Armstrong never failed a post-
race test or a pre-race test. He only failed out-of-competition 
testing when people understood what he was taking.
    And so in California, 2 days ago, or yesterday, I think, 
the proposal that was ratified by the Association of Racing 
Commissioners, which is the foundation of NUMP, their rule on 
out-of-competition testing came before the California Horse 
Racing Board. It did not do well. Their equine medical 
director, Rick Arthur, said a number of things. I will quote 
some of them and----
    Mr. Lance. Thank you, Mr. Janney. In fairness, we ought to 
have Mr. Foreman be able to respond.
    Mr. Foreman. Thank you, Congressman. We have heard 
something today that actually is somewhat new to us, and that 
is IFHA laboratory accreditation. That is something that the 
international labs have been working to accomplish for some 
time because we have been so successful in this country with 
the creation of our RMTC code of standards.
    There are no international code of standards, and the 
international laboratories have been trying to organize a 
program very similar to what we do in the United States. So I 
stand by my statement that all but one of our laboratories is 
accredited to ISO 17025, which is the international laboratory 
standard.
    With respect to what is referred to as the NUMP program 
that no one has adopted, this program started in the 
midatlantic. The midatlantic is the largest concentration of 
racing on a daily basis in the United States. New Jersey is a 
participant.
    Mr. Lance. Indeed, yes.
    Mr. Foreman. This program started in the midatlantic. All 
of the states in the midatlantic have adopted all five prongs 
of the Uniform Medication Program and they are in effect. And 
the program is now sweeping through the country, and you can 
see from our maps how it is being adopted throughout the----
    Mr. Lance. Thank you.
    Mr. Martin, you wish to comment, I believe?
    Mr. Martin. Thank you, Congressman. We hear a lot about 
uniformity. A lot has been said about a patchwork of 38 
different states, each with their own rule book. Well, each 
state does have its own rule book, but those rule books are 
substantially similar and they are based upon the model rules. 
The State of New Jersey, the New Jersey Racing Commission, with 
regards to medication policy, has adopted the model rules by 
reference.
    The constituencies that are most concerned about any minor 
inconsistencies from state to state are the horsemen, and the 
horsemen are universally opposed to a radical restructuring of 
the current system.
    If the Congress is interested in having one set of 
standards, perhaps the easiest thing to do--and I can't speak 
for everybody else at this table--would be to adopt the ARCI 
model rules by reference, because it has been years and years 
and years of well thought out research and interaction between 
our veterinary community that has gone into the creation of 
those rules.
    Mr. Lance. Thank you. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    The chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Cardenas. Thank you very much. Thank you very much, 
Chairman Latta, for having this hearing, and also Ranking 
Member Schakowsky.
    Ms. Block, what kind of understanding do you have about 
what LASIX does to a horse's lungs? Is there any relevance or 
connection between LASIX and the lungs of a horse?
    Ms. Block. I do have some basic understanding, but as I 
said, I am not well versed in this area, so I would defer to my 
colleague on this.
    Mr. Cardenas. Anybody want to state for the record what the 
connection is between a horse's lungs and the use of LASIX?
    Yes, Mr. Janney.
    Mr. Janney. There is certainly a percentage of horses that 
do bleed to the extent that it harms their performance.
    Mr. Cardenas. Excuse me. Thank you for pointing that out. 
Bleed to the extent that it harms their performance.
    Mr. Janney. Yes. There are small capillaries in their 
lungs, and as the air rushes in and out, there may be some 
degree of bleeding.
    Mr. Cardenas. OK.
    Mr. Janney. We never knew about that until the flexible 
stethoscope was invented.
    Mr. Cardenas. So we know now?
    Mr. Janney. We do know now.
    Mr. Cardenas. Now, when a horse is administered LASIX, is 
it 1 percent chance that their lungs are going to bleed at 
least to a small degree? A 2 percent, a 10 percent, a 90 
percent chance? What is the chances that bleeding of the lungs 
will occur when a horse has been administered LASIX? And 
understand, I am talking about a horse that is going to be 
running, not a horse that is sitting in the stall.
    Mr. Janney. There are plenty of horses that are 
administered LASIX and they do bleed. The question is whether 
they bleed to the extent that it inhibits their performance. 
There is a scale of one to five, and I think the thought is 
that if a horse bleeds on a one or two scale, it probably 
doesn't make too much difference.
    Mr. Cardenas. Thank you.
    Mr. Chairman, are there any veterinarians on the panel?
    Nobody on the panel is a veterinarian? That is unfortunate, 
because I think we missed an opportunity. We are talking about 
a drug. We are talking about horses. For example, if a jockey 
is practicing or is going on the track on race day, and that 
jockey doesn't feel good, that jockey can say, hey, I don't 
feel good, and maybe they can get things in order by the time 
the race happens or during practice or get that person some 
help to make sure they are OK.
    But the horses, their only way of communicating that their 
lungs are bleeding is, it appears to me, when you see the blood 
coming out of their nose when you are in real practice of LASIX 
administered to horses.
    Have any horses donated their lungs to science?
    Mr. Hamelback. May I address----
    Mr. Cardenas. The reason why I ask that question is because 
I used to love to play football when I was a kid just way too 
much with or without a helmet. And look what happened to me: I 
am a Member of Congress. What does it take to run for office in 
this country these days? I would venture to say I was affected 
to a certain degree, but then I have the ability to make 
choices. I have the ability to raise my hand and say, hey, I 
need help or something is wrong or what have you.
    And one of the things that concerns me about LASIX and 
horses is, I can understand that maybe 10 years ago, 20 years 
ago, 50 years ago, 100 years ago when people were racing horses 
and then all of a sudden sometime during that timeframe LASIX 
got involved, and people said, hey, this is something that 
helps or this is something that is good or this is something 
that maybe we should be using. But now, we have entire 
countries who are saying, you know what, LASIX, no, not a good 
idea. Now that we have science, not a good idea.
    And what I would venture to believe--unfortunately on this 
panel we don't have one--is that on balance, veterinarians who 
deal with horses, veterinarians who have actually dealt with 
animals, horses that have been administered LASIX or they have 
had to come out and go look at them or what have you and then 
render their opinion about the health and safety of that horse, 
I would venture to believe that, on balance, those 
veterinarians are probably shaking their head going, you know 
what, human beings, LASIX with horses, stop it.
    And the reason why I have joined this bill is because, 
unlike football players, horses, their voice is up to us human 
beings as to whether or not we are going to listen, we are 
going to learn, and we are just going to do the right thing. 
And LASIX is something that I think that us as intelligent 
human beings know today that LASIX is something that is 
probably not good for the horses.
    With that, I am out of time, Mr. Chairman. I yield the 
balance of my time. Thank you.
    Mr. Latta. Thank you. The gentleman's time has expired.
    And the chair now recognizes the gentleman from Florida for 
5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thanks for holding this hearing as well.
    My first question is for Mr. Hamelback. My understanding is 
that LASIX is administered 4 hours before the race, is that 
correct, and why? Can you please explain why LASIX is 
administered on race day as opposed to the prior day?
    Mr. Hamelback. Yes, that is correct, Congressman, that the 
optimum time stated through research to be most efficacious for 
treating EIPH or preventing EIPH is between 3 to 4 hours. That 
is also the timeframe that studies done at the University of 
Kentucky Gluck Center prove that there is no further dilution 
within the blood; therefore, the masking that many people talk 
about is irrelevant because it is not proved to be so if it is 
administered at that timeframe.
    Mr. Bilirakis. OK. Let me ask another question, and I will 
probably get different answers and maybe you answer this 
question. So whoever wants to answer this, please.
    Will a bettor be more inclined to bet on a horse--because I 
have been away from it for a long time--if that bettor knows 
that this horse is given LASIX? And, I need to know that. Well, 
anyway, can you answer that question? What is your opinion?
    Mr. Hamelback. I would like to address just one thing going 
forward.
    Mr. Bilirakis. Yes, please.
    Mr. Hamelback. I want to make sure that, for the record, 
the veterinary groups, unfortunately they were not selected 
here, they have publicly opposed this bill. So I would like to 
make sure that that is on record because we weren't allowed to 
address that.
    If a wagering individual is aware, which, again, LASIX is 
transparent, it is publicly put into the program----
    Mr. Bilirakis. Yes. In Florida, I know that that is the 
case. So the wager would know.
    Mr. Hamelback. Correct.
    Mr. Bilirakis. And it is also announced, I think, in the 
public address system as well----
    Mr. Hamelback. Depending on if there is a correction.
    Mr. Bilirakis [continuing]. The horse is on LASIX. Yes.
    Mr. Martin. Congressman, LASIX use is almost ubiquitous. 
And I say to people, if every horse in that race is running on 
LASIX, could you tell me which one has the advantage, and they 
can't.
    Mr. Bilirakis. Yes. They can't tell you.
    What is the alternative? Mr. Foreman, prior to the use of 
LASIX, how were horses treated to address exercise-induced 
pulmonary hemorrhaging?
    Mr. Foreman. Well, there were a number of therapies and a 
number of concoctions that were being used prior to the 
legalization of LASIX, and that is one of the reasons why the 
industry welcomed the advent of a new medication that was safe 
and effective and leveled the playing field.
    But the single biggest concern about eliminating LASIX and 
what is done internationally as well as in this country, if 
LASIX is not permitted, you withdraw water from the horse for 
at least 24 hours prior to competition, and you withdraw food. 
That is how it is done. Don't think for a second that horses 
don't bleed in Europe. They may not be able to use LASIX on 
race day, but the most effective therapy for a horse that 
bleeds is to withdraw water 24 hours prior to competition.
    Now is that humane? Is that in the best interest of the 
horse? Would you rather see horses who are raced dehydrated 
because they are less likely to bleed and see other 
concoctions? They used to use adjunct bleeder medications that 
we have banned, carbazochrome, Kentucky Red, other concoctions 
that they would give to a horse that anecdotally horsemen 
believed would affect whether or not the horse bleeds or not.
    But to think that we would go back to a situation where we 
were the Wild West before LASIX was permitted and that we were 
allowed to starve or to withdraw water from our horses or to do 
other things, to me is irresponsible. And we would be shirking 
our responsibilities to our primary responsibility, and that is 
the health and welfare of the horse, if we were to withdraw a 
horse that the veterinary community has now elevated to a 
disease, the EIPH factor. We have a safe, effective medication 
that does not affect the performance of the horse. Why would 
you deprive a horse of that?
    Mr. Bilirakis. Anyone else want to comment? That is the 
bottom line. We care about the horse, the health and welfare of 
the horse.
    Mr. Janney. Well, I would like to, if I could. We have 
heard a lot about the veterinary community, and they are in a 
very difficult position. If you or I go to see our doctor and 
he looks at us and says, well, after 45 minutes, more exercise, 
less eating. And we leave. We expect to get a bill.
    That is not the way it works at the racetrack. If a vet 
comes into my stable, and my trainer says, go look at the horse 
down in stall one. He is a little sore. Go look at the one down 
on three. I think there is a problem with an ankle, whatever. 
He doesn't get paid unless he prescribes something, some 
medication.
    I have never paid a bill for a consultation. And so you are 
really conflicted because as a veterinarian, as a racetrack 
vet, you are not going to feed your family giving 
consultations. And the Thoroughbred Safety Committee, and Chris 
McCarron is on that committee, recommended 2 or 3 years ago, 
one of our principle recommendations was go to a system like a 
human doctor where somebody gets paid to analyze and maybe not 
prescribe.
    LASIX is a very lucrative business. The vets basically are 
selling the compounds that they are putting into a horse. If 
your horse may have an ulcer problem and you are getting 
GastroGard for it, the vet has bought the GastroGard. He 
resells it. And that is just a fact of life at the racetrack, 
and it is not the way we ought to do business.
    Mr. Bilirakis. All right. Thank you.
    Mr. Latta. I'm sorry. The gentleman's time has expired.
    Mr. Hamelback. Sir, I have worked for veterinarians for 
much of my professional career, and I find it offensive that 
Mr. Janney addressed the veterinarians in that way.
    Mr. Latta. The chair at this time recognizes the gentleman 
from Texas for 5 minutes of questions.
    Mr. Green. Thank you, Mr. Chairman. And I thank our 
witnesses for being here today.
    Ms. Block, do you know how the death rates for horses in 
the U.S. compare with death rates in other countries?
    Ms. Block. I am sorry. Could you repeat that? Could you 
repeat that question?
    Mr. Green. The death rates for horses in the United States 
as compared to other countries.
    Ms. Block. I don't have the statistics on that, and I can 
certainly compile that for you and present it later.
    Mr. Green. OK. If you could, get it back to us.
    For the panel, all the panel, are horses in the United 
States more prone to bleeding during races than racehorses in 
other countries? And if so, why would you believe that? Why 
would that be happening?
    Mr. Hamelback. Sir, there was a study done in 2009 in South 
Africa. Over 167 horses were tested and scoped. Over 80 percent 
of those bled to some degree, so that is why we believe it is 
necessary.
    Mr. Janney. I will maybe add a little bit to that. A lot of 
the other countries have different training centers. We tend to 
house our horses at the racetrack. They tend to be in more 
urban environments. Air quality may not be as good. We have a 
definite predisposition for speed in a race, and those kinds of 
elements do affect what is going on, and it probably makes our 
bleeding a bigger problem than it might be in other 
jurisdictions.
    But the fact of the matter is, even having said that, it is 
really 10 percent of the population that we are talking about. 
Ninety percent of the horses don't need LASIX, but they get it 
anyway, and then they get a bottle of electrolytes after they 
race to try and rehydrate them. So it is a problem.
    Mr. Green. Mr. Martin, is pulmonary bleeding painful for 
the horses? Although none of us are horses, I guess we don't 
know.
    Mr. Martin. I didn't know I looked like a horse, 
Congressman.
    I can't answer that question. The only thing I can say is 
what has been alluded to, is the American College of Veterinary 
Internal Medicine has elevated its assessment of the degree of 
seriousness of EIPH.
    We reopened this issue in 2011 because it has always been a 
controversial issue within the racing industry. We brought in 
experts, veterinary experts, research experts, and we concluded 
that there was no science that would necessitate taking away 
this medication that is given either for reason or 
prophylactically to protect the health of the horse when it 
races.
    Mr. Green. Mr. Fravel, you said in your testimony that the 
Breeders' Cup conducts out-of-competition testing on 
approximately 85 percent of all starters in the Breeders' Cup 
and put prospective starters under 24-hour surveillance 72 
hours prior to the start time. Are such stringent measures 
common or is the Breeders' Cup more unique in this respect?
    Mr. Fravel. I would say, other than Hong Kong and Japan, 
that the regimen that we have established for the Breeders' Cup 
is the most strict in the world, certainly the most strict in 
the United States.
    As I said in my written testimony, the processes that are 
implemented on large event days, like the Triple Crown races, 
the Breeders' Cup, I think security testing, out-of-competition 
testing, is all very advanced. It is the day-to-day racing 
where I think the public lacks the confidence that those same 
kind of safeguards are in place, and the same level of 
expertise in the testing and enforcement is missing.
    Mr. Green. Mr. Janney, opponents of the bill have shared 
concerns about the USADA's lack of expertise in veterinary 
science for horses specifically. Do you see that as being an 
obstacle to implementing H.R. 2651?
    Mr. Janney. I don't. We humans share 98-plus percent of our 
DNA with horses. And most of the drugs that are coming into the 
horse industry that could be described as performance enhancing 
are coming from human medicine. There is really not a huge 
amount of research in new drugs that are in the equine field. 
It is really all coming from the human side.
    And USADA has a huge amount of expertise in figuring all 
that out, and it has to be very intelligence-based testing. You 
have got to know what you are looking for, because if the 
molecule has changed in any way, you are not going to find it. 
So really, I think they are the best people to go forward with 
this.
    We are in a new world. I would love it to be a different 
world where people didn't take an edge, but they are taking an 
edge now in a way that is far more effective than it used to 
be. And that is our problem. And we have to work very closely 
with the other sports to figure out what is happening.
    It used to be we only had to worry about what was going on 
in the harness industry and whether it was migrating over into 
the Thoroughbreds. That isn't the case anymore. It could be a 
Russian athlete that is taking something and it works pretty 
well in a horse too.
    Mr. Green. Thank you, Mr. Chairman.
    I didn't think Russians would be in horse races.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And just to let the committee know that we might have votes 
as early as 11:15, so I would like to make sure that all 
members keep their questions at 5 minutes so we can get the 
questions in prior to votes.
    So at this time, the gentleman from West Virginia is 
recognized for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I come from northern West Virginia in Wheeling, and I grew 
up around Wheeling Downs, Big Bill Lias, and this issue is 
certainly something that we would have heard about back then 
about the doping of horses and all the problems we had back 
then. But in that area, now, Wheeling Downs then switched over 
to Greyhound racing, but we still have the meadows and 
Mountaineer Park. So it is something very much a horse 
industry, is very important to me and how we have done that 
growing up around it.
    So I have got to say that in the few years, 8 years I have 
been here, when people come before the panel, there is 
sometimes a little bit of confusion of whether or not they are 
with us or against us on this--on any particular bill, but not 
on this one.
    You two, Hamelback and Martin, I don't know if you didn't 
get the memo. Your passion came out pretty strongly about where 
you stand on this, so I am fascinated with that, but I want to 
hear the counter to it as we debate this.
    So, Mr. Fravel, tell me where they are wrong. We heard the 
testimony. Where are they wrong?
    Mr. Fravel. Well, the gist of a lot of this testimony is, 
things are going fine, we are doing well, don't mess with us, 
that we don't need a national program, we can do it all 
ourselves.
    Mr. Janney mentioned yesterday an example, and I mentioned 
it in my testimony in California. One of the four components of 
the National Uniform Medication Program was third-party LASIX 
administration. It took 4 years to get that done in California.
    A year-and-a-half ago, we all met in Arizona, and we 
adopted, as part of the RMTC and RCI, the out-of-competition 
testing rules. Yesterday, after 18 months of deliberation in 
California, that was referred back to committee because the 
rule was claimed to be unclear or failed to meet the 
Administrative Procedures Act.
    I am concerned with this conversation focusing so much on 
LASIX. If we came up with a new medication tomorrow that could 
be administered 24 hours out and prevented EIPH, it would take 
4 years under the current system to get that implemented 
nationally because there would be so much arguing over its 
effectiveness and research and everything else. The current 
system takes too long. It takes forever.
    Mr. McKinley. Let me go to Mr. Hamelback, if we could. You 
have been hearing the testimony now on the other side of the 
issue. Where are they wrong, so that you could refute or 
bolster your case? What should I be listening to?
    Because the concern I have a little bit is the fact that 
internationally they can use LASIX up until the day of the race 
and they can't on the day of the race. So I need to be educated 
a little bit more about that position and also in debating what 
you are hearing their testimony. Where are they wrong?
    Mr. Hamelback. First off, as the son of a Marine and United 
States American, I am not sure that I really worry about what 
they do internationally. What we do in the United States is the 
number one industry in the world, period.
    I think the burden of proof comes to them. They need to 
tell us why this is necessary, because statistically it is not. 
Plain and simple. There is no proof of what we are doing 
currently needs further oversight.
    Do we need more time and money to be spent on researching, 
as Mr. Janney said, designer drugs? Absolutely. Do I need to 
continue to hear LASIX equated as a drug? I do not. LASIX is a 
therapeutic medication, no different than Advil. I take LASIX 
every day for high blood pressure. It is safe. It is effective 
for a problem that was elevated to a disease. And I need to 
make sure, as the only one that raised horses up here, it is 
the health and welfare of the horse that we take care of first.
    So, yes, I would say that my members would be the first to 
stand and say if there was a medication proven that would be as 
effective or preventing EIPH and you could administer it 36 
hours out, that is what is best for the horse, that is what our 
mission statement says, that is what we are going to do.
    Mr. McKinley. Thank you. And I yield back my time.
    Mr. Latta. Thank you. The gentleman yields back.
    The chair now recognizes the gentleman from Indiana for 5 
minutes.
    Mr. Bucshon. Thank you, Mr. Chairman. Fascinating subject, 
passionate on both sides.
    I was a doctor before I was in Congress, so I am not a 
veterinarian, but I was a people doctor. And so I am fascinated 
with how this is focused on LASIX. As a heart surgeon, I gave 
people LASIX all the time.
    And so when you get down to the facts, here is what we need 
to know, I think, when you want to determine whether a 
medication is effective or not. First of all, what is the 
incidence of the disease you are trying to treat; whether or 
not the medication you are giving treats it; in what percentage 
of patients it is effective to treat the problem that you are 
proposing you are treating. And you also want to make sure 
there is clinical significance in the problem that you are 
treating.
    And I am not convinced of any of those things as it relates 
to LASIX in horseracing, other than the fact that horses lose a 
bunch of weight, which gives a racing advantage, clearly.
    So I guess I would start with Mr. Fravel here. What is the 
information that says, number one, the instance of this problem 
is significant enough? You said, Mr. Janney, 90 percent of 
horses, no problems. So you are down to 10 percent, roughly. 
What is the incidence of the disease? Is the medication being 
used to treat that disease? What is the effectiveness of it? 
And is there a clinical significance in treating the disease 
enough to actually treat it?
    Mr. Fravel. Let me try to give you my laymen's 
understanding of those questions. One, all horses bleed to some 
degree under intense levels of exercise. That was only 
discovered, as Mr. Janney said, with the introduction of the 
flexible endoscope.
    Mr. Bucshon. Can I interrupt you then on that? That is a 
good point, because that means that, was there overt clinical 
evidence of bleeding prior to looking down into the airway and 
say, hey, there is a little bit of blood there?
    Mr. Fravel. There was only the incidence of epistaxis from 
the nose. And I think the incidence of that in Hong Kong, for 
example, is about 4 percent----
    Mr. Bucshon. OK. So very, very low incidence of actual 
clinical evidence.
    Mr. Fravel. So there have been studies that were mentioned 
in South Africa that do indicate that LASIX does have a 
positive impact on horses that do bleed. So it might reduce a 
four to a three or a two to a one.
    The other answer to some of those questions, 
physiologically we don't know the impact on individual horses. 
People say, well, it is not performance enhancing. My wife, 
when she has one glass of wine, is a lot different than I am 
when I have one glass of wine. So we don't know, actually, in 
individual equines how that medication affects their individual 
performance. Their trainers may have a better idea than I would 
or the wagering public would, but we don't know the answer to 
that.
    The final part of that question is I believe there has been 
some research that indicates that although there is some 
pathological change in the lungs as a result of bleeding over 
time, we don't have any indication that that has reduced the 
life expectancy of horses, their useful life as a racehorse, 
nor is there any clinical indication that there is a disease 
that follows that pathology. So----
    Mr. Bucshon. Mr. Janney, and then I will have one of the 
other people that opposes the bill give their comments.
    Quickly, do you have anything to add?
    Mr. Janney. Well, I think that one of the things that you 
have to worry about is the perception on the industry and being 
out of step with the rest of the world. I disagree a bit with 
my colleague over here on the left. We sell our horses in 
international markets. There is a reason that Keeneland has 
written a letter supporting this bill. I think that reason is 
that every other national association talks about why U.S. 
horses are inferior. Whether that is true or not, I am not 
saying.
    The second thing is that Mr. Gagliano, who is president of 
The Jockey Club, is always going to international forums. And 
at those forums, always the other international bodies say why 
should we accredit your races in the United States when you run 
on race-day medications?
    Mr. Bucshon. I am going to interrupt you there because I 
have only got a few seconds left. Thank you.
    Anyone else?
    Mr. Martin, quickly. Do you have any comments?
    Mr. Martin. I think the history of LASIX is well known. I 
think the research that has been done subsequent to the 30 
years when it was first put in place probably makes the case 
more to permit it. As far as international, in North America, 
Canada allows LASIX. There are a ton of standardbred horses 
that cross the border and race----
    Mr. Bucshon. I am going to interrupt you there because the 
chairman wants me to stay on time, and thank you all for your 
comments.
    I yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back.
    The chair now recognizes the gentleman from Oklahoma for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman. Thank you to our panel 
for being here. Thank you, Andy, for leading on this.
    Mr. Foreman, are states' racing commissions equipped to 
properly regulate the horseracing industry?
    Mr. Foreman. They have done it for over a century and they 
are doing it now, so the answer is yes.
    Mr. Mullin. Would you consider horseracing, though, out of 
state? Would you consider it more of a national sport than just 
a state sport at this point?
    Mr. Foreman. Our sport is national to the extent that we 
are permitted to simulcast our races throughout the country and 
that we have betters who are betting on races.
    Mr. Mullin. I am asking this because I know the answer to 
this. Do the horses travel across state lines?
    Mr. Foreman. Particularly in the midatlantic, which is the 
largest concentration in the United States, they are crossing 
state lines every day.
    Mr. Mullin. So commerce would be traveling across state 
lines at that point, right?
    Mr. Foreman. Yes.
    Mr. Mullin. OK. And I think that is kind of what we are--of 
course, we are talking a lot about LASIX here. I get that. But 
the fact is is that Congress does have a role for the commerce 
side of it, that is why we are Energy and Commerce, when it 
crosses state lines, even when it comes to sports.
    I do not like regulations at all. I think we are equipped 
to regulate ourselves, so everybody needs to understand that. 
But Congress does have a role when it starts crossing states' 
lines. That is a role that we have to regulate.
    And so when we are starting to talk about the bill and 
talking about moving forward, it is not about the industry. The 
industry can oversee itself. Those that are participating can 
oversee it. So we have got 32 different jurisdictions that are 
working to try to uniform the standards right now inside the 
horseracing, I get all that. But what role does Congress have 
to play?
    In this particular role, when we start talking about the 
horseracing industry, not track to track, does Congress have a 
role to play in this or not?
    Mr. Janney. Very quick answer. If you all hadn't passed the 
Interstate Horse Racing Act, we wouldn't be here. I wouldn't be 
in the business, and there really wouldn't be an industry.
    Mr. Mullin. Mr. Hamelback?
    Mr. Hamelback. Does Congress play a role in NASCAR? They 
travel from state to state and compete in different----
    Mr. Mullin. We do some. We also do in NCA sports, and we do 
in the NFL. We do in major league baseball, in the NBA. Not in 
the UFC, but we will with MMA.
    Mr. Hamelback. But ultimately, each commission of the 34 
pari-mutuel governed jurisdictions, which Oklahoma, obviously 
you have Will Rogers Downs, Thoroughbred Racing Association of 
Oklahoma.
    Mr. Mullin. The Oklahoma horseracing industry is not for 
this, and I understand it. I am not for overregulating. I am 
just asking the question, does Congress have a role to play in 
it or not?
    Mr. Hamelback. I do not think so. Each state is 100 percent 
uniform that has racing.
    Mr. Mullin. But the horses travel outside the state if it 
is----
    Mr. Hamelback. You have to abide by the rules that are in 
that state.
    Mr. Mullin. And the horses travel from track to track, and 
the owners travel from track to track, right?
    Mr. Hamelback. Right.
    Mr. Mullin. Yes. My first cousin, who is a very good friend 
of mine, very close, we traveled all over the place, rodeoing 
together, because my background is rodeoing. I think quarter 
horses are better than thoroughbreds, but, that is my jab 
there, guys, so go with me. Make light of the situation.
    But he shoes horses all over the place. He travels from 
track to track, which makes the industry not just regulated or 
not just overseen by just one state. I don't like it any more 
than anybody else. I don't want to overregulate the industry. 
The industry is successful and it is working. I get that. But 
Congress does have a role to play here.
    As much as I don't like it, that is the end of--really, 
that is the end or the beginning of our conversation. When it 
crosses a state line, that is where our role plays. That is why 
we have interstate commerce and intrastate commerce. That is 
why there are two different things.
    Yes, sir.
    Mr. Janney. The difference between NASCAR and us is we are 
betting. Now, sports betting is coming.
    Mr. Mullin. I am sure there is no betting on NASCAR.
    Mr. Janney. Well, sports betting is coming, and you will 
have, as a committee, I am sure, a very interesting question as 
to what you want to do. But the fact of the matter is, the 
reason we are all here is the Interstate Simulcasting Act, and 
people in California are betting on New York races and vice 
versa. And that is really the important element.
    Mr. Mullin. Mr. Foreman, go ahead.
    Mr. Foreman. Congressman, interestingly, the Interstate 
Horse Racing Act does not regulate simulcasting. Simulcasting 
is regulated by the states.
    Mr. Mullin. I agree with that.
    Mr. Foreman. All that the Interstate Horse Racing Act does 
is prevent simulcasting to states that have not legalized 
gambling, and lets the industry regulate but permits it in 
states that allow it.
    Mr. Mullin. Right. I feel we are a long way from getting 
this fixed, but this is a conversation that needs to be had. 
And I appreciate Congressman Barr for bringing this up because, 
as we do need to look forward, we do need to understand what 
role we have or haven't to play in this.
    Mr. Chairman, I yield back.
    Mr. Latta. The gentleman's time has expired.
    The chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you.
    Mr. Hamelback, in your testimony, you state that the U.S. 
Anti-Doping Agency lacks equine knowledge. How do you think 
that will affect or impede their ability to be effective?
    Mr. Hamelback. Certainly, we feel like it is well known and 
publicized that the United States Anti-Doping Agency has 
experience in human testing professional human sports. It is 
our belief that while they do have that expertise in humans, 
crossing over to the equine world is not only different, it is 
logistically different. Nothing in this piece of legislation 
actually puts them doing anything different than we already 
have in place now.
    Mr. Costello. Share briefly the logistical differences.
    Mr. Hamelback. Beg your pardon?
    Mr. Costello. Share briefly the logistical differences that 
you are referencing.
    Mr. Hamelback. Well, for one, I would say the quantity 
number of tests. And one thing that we have continued to not be 
exposed to is the economic impact that this is going to have on 
our industry. To me, I see that as a very logistically 
difficult hurdle to get over. At this point, nothing has been 
done as far as an economic study to show us what this is going 
to cost with a new, some could say two new regulatory 
bureaucratic layers added onto us already.
    Mr. Costello. Thank you.
    Mr. Fravel, I invite you to respond to anything that might 
have been said, as well as explain to the committee more about 
the potential abuse of designer drugs in horseracing.
    Mr. Fravel. Is that question for me?
    Mr. Costello. Yes, sir.
    Mr. Fravel. Well, I think all of us read in popular 
publications how designer drugs are introduced on a daily 
basis. And, the term ``designer drugs'' is probably overstated. 
There is constant research in human medicine directed at 
developing new medications. And, somehow or another, those 
things find their way into horseracing or athletics or areas 
they weren't intended at all.
    So, the concern here is that we don't have a concerted 
national effort to identify threats as they occur, whether 
those be genomic alterations or designer drugs or other kinds 
of practices that none of us are aware of. It is hard for those 
of us who are honest, honestly, to come up with devious things 
that other people come up with, but we need to find a national 
organization to identify those threats and deal with them.
    Mr. Costello. Thank you.
    Mr. Foreman. Congressman, if I could just respond to your 
question about USADA?
    Mr. Costello. Yes, and then I have a followup.
    Mr. Foreman. USADA does not regulate the performance horse 
industry that participates in the Olympics in this country. 
They may do to the human athletes, but they do not do the 
equine competitions. That is regulated by the United States 
Equestrian Federation, which has its own governing body, its 
own regulations, and its own laboratory.
    So, clearly, USADA is not capable and qualified, or they 
would be doing the work of the Olympic Committee and the 
performance horse industry in this country.
    Mr. Costello. Thank you.
    You indicated there is also total uniformity as it relates 
to banning performance-enhancing drugs in horseracing. If that 
is the case, why do proponents of this bill still wish to see 
it enacted?
    Mr. Foreman. Well, as I have said in my testimony, I don't 
think it is about uniformity. I think it is about LASIX, and I 
think it is about getting the regulation of the sport into the 
hands of those who are not the state regulators who are 
permitting the practice right now. And I think that is 
fundamentally what is going on here, and I think you can hear 
it in the debate.
    The industry is focused on performance-enhancing drugs. The 
industry is focused on every aspect of medication and drug 
testing. The industry created a consortium back in 2004 that 
would be the scientific arm of the industry, because that is 
what those who are proponents wanted--an independent scientific 
arm to advise the industry on medication matters.
    And that is an organization that has done very well. It is 
one we rely on. And they are the scientific body of the 
industry that makes the recommendations to us. And, quite 
frankly, when it comes to the work we are doing with designer 
drugs or other new drugs that are entering the marketplace and 
into racing, we do that research and we do that work through 
the RMTC.
    Mr. Costello. Thank you.
    Any quick followup from anyone on those points?
    Go ahead, Mr. Martin.
    Mr. Martin. The issue of designer drugs has come up, and 
the lack of some kind of organization. You are sitting next to 
one, and the RMTC is another one, and the Association of Racing 
Chemists is a third. And when we get information about the use 
of a particular substance, it goes into that network in various 
ways.
    And I know the New York lab has come under some criticism 
here, but I used to be the racing and wagering executive 
director in New York. And the first time I met Dr. Maylin, that 
is when I started to appreciate--he would spend all his free 
time on the internet, cruising the blogs of other sports to see 
what they were using and then trying to develop ways to detect 
that.
    And that has not changed in all of those years. As a matter 
of fact, it was the New York lab that recently discovered the 
use of a designer drug that nobody else had the ability to test 
for, and then that was circulated out through the network of 
labs.
    We may not be real good at tooting our own horn, but there 
is a system in place. It may not be perfect, but there is a 
system in place. And we work every day to strengthen it and try 
to make it better.
    Mr. Costello. Thank you. I encourage you to supplement your 
testimony with any additional written response.
    I yield back the balance of my time.
    Mr. Latta. Thank you.
    The gentleman's time has expired.
    And the chair recognizes himself at this time.
    Mr. Foreman, are there any concerns with having the Federal 
Trade Commission oversee this type of a program? I am not aware 
of a similar program overseen by the agency, and I would 
appreciate your thoughts on that.
    Mr. Foreman. I am not aware of any other program similar 
either, particularly in our industry.
    I think it is interesting that the involvement of the 
Federal Trade Commission, obviously, invokes consumer 
protection. And I envision--and I said it in my statement, and 
I wasn't engaging in a hyperbole--that if there is a move to 
eliminate LASIX in this country, in racing in the United 
States, it is going to force owners out of the business. It is 
going to force at horse sales that go on in many states 
throughout the country, auctions and sales, a disclaimer that 
is going to have to be put on horses that are sold that they 
are potential bleeders, that they may suffer this incidence of 
EIPH, that they will not be able to treat that horse for 
racing, and that horse may not be able to race.
    Now, can you envision buying an automobile or a product 
where you are told at the time of sale that this product may 
have a problem, it is likely to have a problem, you are not 
going to be able to fix it in a way that you can use it? Are 
you going to buy that product? And that is why you don't see 
the breeders organizations throughout the country supporting 
this bill. Because they know what is going to happen; it is 
going to chill sales.
    You have owners who have horses that bleed. If you take 
this medication away from them, they will leave the business. 
Where are those horses going to go? This is not Europe. We have 
thousands of races in this country. We have 32 states 
conducting racing on a daily or a seasonal basis. We have tens 
of thousands of people employed in this business, and it is 
labor-intensive. You take these animals off the racetrack; 
where are they going to go? And that is the welfare crisis that 
I am talking about.
    And I am sure many of you have heard from constituents who 
are in this industry and what effect what you think is a simple 
change will have on the economics of the horseracing industry.
    Mr. Latta. Thank you.
    In the balance of my time, Mr. Janney, in your testimony, 
you mentioned the use of a number of drugs in reference to 
milkshaking. Would you explain what this is and what you have 
seen with respect to cheaters using this type of method?
    Mr. Janney. Well, milkshaking has probably had its heyday, 
but, basically, what it was doing was loading up with 
bicarbonate, which had an effect on slowing the deterioration 
of strength in the muscles because it slowed down the oxygen 
leaving the muscles. I am not a scientist, but that is 
basically what was going on, and horses were being loaded up 
with bicarbonate.
    After quite a long time, the industry addressed it. They 
did address it on a state-by-state basis. It did take, as I 
say, a very long time, but, fundamentally, we are able to look 
at levels of oxygen in the blood and come to some 
determination.
    Having lived through it in New York, where I was on the New 
York racing board, I can tell you that the limit was set so 
high that it still allowed a fair amount of milkshaking to go 
on. The numbers were such that you could go over that but you 
could also milkshake and stay under that limit. And that is 
kind of where we are today.
    But there is no question that milkshaking can be effective 
and that horses end up with more stamina, to complete the race.
    Mr. Latta. Thank you.
    I am going to yield the balance of my time. And I see that 
we have no other members wishing to ask questions. But, first 
of all, I want to thank our panel for being with us today. It 
has been a very informational and informative meeting today.
    But before we conclude, I would like to ask for the 
following documents to be submitted for the record by unanimous 
consent, and we have quite a number: A letter from the American 
Quarter Horse Association; a letter from American Racing and 
Entertainment; a letter from Chris McCarron; a letter from the 
Equine Health and Welfare Alliance; a packet of documents from 
Alan Foreman; testimony from William Lear of The Jockey Club; a 
letter from the Stronach Group; a letter from the Ohio State 
Racing Commission; a letter from Barbara Banke of Stonestreet; 
testimony from Matt Luliano of The Jockey Club; documents and a 
letter from Dr. Thomas Tobin; testimony from William Thomas of 
Keeneland Association; a letter from the New Racing 
Association; a letter from the U.S. Trotting Association; a 
letter from West Point Thoroughbreds; a letter from the 
Kentucky Thoroughbred Association; a letter from the North 
American Association of Racetrack Veterinarians; a letter from 
the Thoroughbred Owners and Breeders Association; a letter from 
Shawn Smeallie of the Coalition for Horse Racing Integrity; a 
collection of documents from the Humane Society of the United 
States; and a letter and roster from the Water, Hay, Oats 
Alliance.
    [The information has been retained in committee files and 
can be found at: https://docs.house.gov/meetings/IF/IF17/
20180622/108463/HHRG-115-IF17-20180622-SD003.pdf.]
    Mr. Latta. And, with that, I again want to thank our 
witnesses for testifying today. And as I mentioned a little 
earlier, if there are additional questions that would be 
submitted the record by our members, that we would have about a 
10-day period for you all to answer those letters.
    So, again, I appreciate you all for being here today and 
for your testimony.
    And, at this time, the subcommittee will stand adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
